______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
JESUS EDER MORENO ORNELAS, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
______________________________________
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
______________________________________
Petitioner, through counsel, asks leave to file the attached Petition for
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma pauperis. Counsel was
appointed in the court of appeals under the Criminal Justice Act, 18 U.S.C. §
3006A(b). This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.
Respectfully submitted,
December 29 , 2020

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
_____________________________________
JESUS EDER MORENO ORNELAS, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
__________________________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
___________________________
PETITION FOR WRIT OF CERTIORARI
______________________________________

CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Attorney for the Petitioner

QUESTIONS PRESENTED

A.

The government failed to overcome the presumption of innocence when

the jury could not reach a verdict on an attempted murder count. Did it violate
the Due Process Clause and the Sixth Amendment right to trial by jury for the
district court to, despite the government’s failure to overcome the presumption
of innocence at trial, apply the attempted murder sentencing guideline through
a cross reference from the guideline for convictions on two firearms counts?

B.

Petitioner was convicted of being a felon in possession of a firearm and

being an illegal alien in possession of a firearm in violation of 18 U.S.C. §
922(g), but the indictment did not allege, the jury instructions did not require a
finding of, and the government did not attempt to prove the knowledge of
status required by Rehaif v. United States, 139 S. Ct. 2191 (2019).
1.

Does failure to make a specific Rehaif argument in a general

motion for judgment of acquittal limit review of a sufficiency of
evidence claim to review for plain error?
2.

To the extent plain error review does apply, is a reviewing court

permitted to look to evidence outside the trial record in determining
whether there was an effect on substantial rights and/or an effect on the
fairness, integrity or public reputation of judicial proceedings?
3.

Is a stipulation to the fact of status, as there was in the present

case and there is in most 18 U.S.C. § 922(g) cases, sufficient evidence to
establish the knowledge of status that Rehaif requires?

i

TABLE OF CONTENTS
PAGE
I.

OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.

JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

III.

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

IV.

STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

V.

A.

JURISDICTION IN THE COURTS BELOW.. . . . . . . . . . . . . . . . 2

B.

FACTS MATERIAL TO CONSIDERATION OF THE
QUESTIONS PRESENTED.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
1.

Arrest, Indictment, and Trial.. . . . . . . . . . . . . . . . . . . . . . . 5

2.

Sentencing.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

3.

This Appeal.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

REASONS FOR GRANTING THE WRIT.. . . . . . . . . . . . . . . . . . . . . . 11
A.

THE PETITION SHOULD BE GRANTED TO RESOLVE THE
IMPORTANT QUESTION OF WHETHER A SENTENCE MAY
BE ENHANCED FOR AN OFFENSE TRIED TO BUT NOT
FOUND BY THE JURY.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
1.

Whether a Sentence May Be Enhanced for an Offense Tried
to But Not Found by the Jury Is an Important Question
About Which There Is Uncertainty and on Which this Court
Should Clarify the Law.. . . . . . . . . . . . . . . . . . . . . . . . . . 12

2.

There Is a Split of Authority Created by State Court
Decisions Regarding Acquitted Conduct Which Extends to
Conduct on Which the Jury Did Not Reach a Verdict.. . . . 17

3.

This Case Is an Excellent Vehicle for Deciding the
Question Presented Because the Sentencing Guidelines and
the District Court in this Case Directly Relied on the
Sentencing Guideline for the Charged Offense on Which
the Jury Failed to Reach a Verdict.. . . . . . . . . . . . . . . . . . 20

ii

TABLE OF CONTENTS (cont’d)
PAGE

B.

VI.

THE PETITION SHOULD BE GRANTED TO RESOLVE
SPLITS IN THE LOWER COURTS ON MULTIPLE
IMPORTANT QUESTIONS REGARDING CONVICTIONS
INFECTED BY ERROR UNDER REHAIF.. . . . . . . . . . . . . . . . . 21
1.

The Question of Whether Failure to Specifically Make a
Rehaif Argument in a General Motion for Judgment of
Acquittal Limits Review of a Sufficiency of Evidence
Claim to Review for Plain Error Is an Important Question
on Which the Circuits Are Split.. . . . . . . . . . . . . . . . . . . . 21

2.

The Question of Whether a Court Is Permitted to Look
Outside the Trial Record to the Extent the Plain Error
Standard Does Apply Is an Important Question on Which
the Circuits Are Split.. . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

3.

The Question of Whether a Stipulation to the Fact of Status
Is Sufficient Evidence to Establish the Knowledge of Status
Which Rehaif Requires Is an Important Question on Which
the Circuits Are Split.. . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

4.

This Case Is an Excellent Vehicle for Addressing the
Questions Presented.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

APPENDIX 1 (Court of Appeals Opinion). . . . . . . . . . . . . . . . . . . . . . . . A001
APPENDIX 2 (Order Denying Rehearing).. . . . . . . . . . . . . . . . . . . . . . . . A006
APPENDIX 3 (partial transcripts of sentencing hearing and resentencing
hearing).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A007
APPENDIX 4 (transcripts of motion for judgment of acquittal and rulings on
same). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A015
APPENDIX 5 (stipulation to felon and illegal reentry status). . . . . . . . . . . A027
APPENDIX 6 (Appellant’s Opening Brief [portion relevant to questions
presented]). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A033

iii

TABLE OF CONTENTS (cont’d)
PAGE
APPENDIX 7 (Brief of Appellee [portion relevant to questions
presented])).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A063
APPENDIX 8 (Appellant’s Reply Brief [portion relevant to questions
presented]). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A097
APPENDIX 9 (government supplemental authority letter). . . . . . . . . . . . . A103

iv

TABLE OF AUTHORITIES
CASES
PAGE
Alleyne v. United States,
570 U.S. 99 (2013).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 16
Bollenbach v. United States,
326 U.S. 607 (1946).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Coffin v. United States,
156 U.S. 432 (1895).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17, 18, 19
Dean v. United States,
556 U.S. 568 (2009).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Franchise Tax Bd. of Cal. v. Hyatt,
139 S. Ct. 1485 (2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Hohn v. United States,
524 U.S. 236 (1998).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 15
In re Winship,
397 U.S. 358 (1970).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Jones v. United States,
574 U.S. 948 (2014).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 16, 19
Nelson v. Colorado,
137 S. Ct. 1249 (2017). . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13, 14, 15, 17
People v. Beck,
939 N.W.2d 213 (Mich. 2019),
cert. denied, 140 S. Ct. 1243 (2020).. . . . . . . . . . . . . . . . . . . . . . . . 18, 19
Rehaif v. United States,
139 S. Ct. 2191 (2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Russello v. United States,
464 U.S. 16 (1983).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
State v. Cote,
530 A.2d 775 (N.H. 1987). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17, 18, 19
State v. Marley,
364 S.E.2d 133 (N.C. 1988). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18, 19
v

TABLE OF AUTHORITIES (cont’d)
CASES (cont’d)
PAGE
United States v. Bell,
808 F.3d 926 (D.C. Cir. 2015). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Booker,
543 U.S. 220 (2005).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 15
United States v. Burden,
964 F.3d 339 (5th Cir. 2020),
petition for cert. pending, No. 20-5939 (filed Sept. 30, 2020),
and No. 20-5949 (filed Sept. 30, 2020). . . . . . . . . . . . . . . . . . . . . . 28, 29
United States v. Faust,
456 F.3d 1342 (11th Cir. 2006). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Gilmore,
968 F.3d 883 (8th Cir. 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
United States v. Gjurashaj,
706 F.2d 395 (2d Cir. 1983).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Johnson,
963 F.3d 847 (9th Cir. 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
United States v. Johnson,
979 F.3d 632 (9th Cir. 2020). . . . . . . . . . . . . . . . . . . . . 10, 22, 24, 27, 30
United States v. Jones,
174 F.3d 746 (7th Cir. 1949). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
United States v. Lasley,
832 F.3d 910 (8th Cir. 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Maez,
960 F.3d 949 (7th Cir. 2020),
petition for cert. pending, No. 20-6129 (filed Oct. 19, 2020),
and No. 20-6227 (filed Oct. 28, 2020). . . . . . . . . . . . . . . . . 22, 24, 29, 31
United States v. Mercado,
474 F.3d 654 (9th Cir. 2007). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Miller,
954 F.3d 551 (2d Cir. 2020).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25, 29
vi

TABLE OF AUTHORITIES (cont’d)
CASES (cont’d)
PAGE
United States v. Nasir,
___ F.3d ___, 2020 WL 7041357 (3d Cir. Dec. 1, 2020)
(en banc).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
United States v. Olano,
507 U.S. 725 (1993).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Ornelas,
906 F.3d 1138 (9th Cir. 2018),
cert. denied, 139 S. Ct. 2638 (2019).. . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
United States v. Owens,
966 F.3d 700 (8th Cir. 2020),
petition for cert. pending, No. 20-6098 (filed Oct. 13, 2020). . . 22, 24, 29
United States v. Reed,
941 F.3d 1018 (11th Cir. 2019),
petition for cert. pending, No. 19-8679 (filed June 8, 2020). . . . . . . . . 25
United States v. Sabillon-Umana,
772 F.3d 1328 (10th Cir. 2014). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Staggers, 961 F.3d 745 (5th Cir.),
cert. denied, 208 L. Ed. 2d 103 (2020). . . . . . . . . . . . . . . . . . . . 21, 28, 29
United States v. Vonn,
535 U.S. 55 (2002).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Ward,
957 F.3d 691 (6th Cir. 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 29, 31
United States v. Watts,
519 U.S. 148 (1997) (per curiam).. . . . . . . . . . . . . . . . . 10, 11, 13, 15, 18
United States v. White,
551 F.3d 381 (6th Cir. 2008) (en banc). . . . . . . . . . . . . . . . . . . . . . 12, 13

vii

TABLE OF AUTHORITIES (cont’d)
STATUTES, RULES, AND GUIDELINES
PAGE
8 U.S.C. § 1326. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 111(b).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 922(g).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 5, 9, 28, 29
18 U.S.C. § 924(a)(2). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
18 U.S.C. § 924(c).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 8
18 U.S.C. § 1111. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 1113. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 1114. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 2112. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 3231. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1254(1).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1291. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Rule 7(b)(1), Federal Rules of Civil Procedure. . . . . . . . . . . . . . . . . . . . . . . . 23
Rule 50(a)(2), Federal Rules of Civil Procedure. . . . . . . . . . . . . . . . . . . . . . . 23
Rule 29(a), Federal Rules of Criminal Procedure.. . . . . . . . . . . . . . . . . 4, 22, 23
Rule 52, Federal Rules of Criminal Procedure.. . . . . . . . . . . . . . . . . . . . . . . . . 4
U.S.S.G. § 2A2.1.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 8
U.S.S.G. § 2A2.2(a).. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
U.S.S.G. § 2K2.1.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 7, 20
U.S.S.G. § 2X1.1.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 7, 20

viii

TABLE OF AUTHORITIES (cont’d)
OTHER AUTHORITIES
PAGE
Black’s Law Dictionary.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Charles Alan Wright and Arthur R. Miller, Federal Practice and Procedure:
Criminal (4th ed. 2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22, 23
Fed. R. Crim. Pro. 47 advisory committee‘s note.. . . . . . . . . . . . . . . . . . . . . . 24
Memorandum for the United States, Burden v. United States, No. 20-5939
(U.S. Nov. 6, 2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

ix

_____________________________________
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_____________________________________

Jesus Eder Moreno-Ornelas petitions for a writ of certiorari to review
the judgment and opinion of the United States Court of Appeals for the Ninth
Circuit in his case.

I.
OPINIONS BELOW

The unpublished opinion of the United States Court of Appeals for the
Ninth Circuit, which is also reported at 814 Fed. Appx. 313, is included in the
appendix as Appendix 1. An order denying a petition for rehearing en banc is
included in the appendix as Appendix 2. The transcripts of the relevant
portions of the district court’s oral rulings at an initial sentencing and a
resentencing are attached as Appendix 3. The transcripts of the district court’s
ruling on a motion for judgment of acquittal are attached as Appendix 4.

1

II.
JURISDICTION

The judgment of the United States Court of Appeals for the Ninth
Circuit was entered on July 31, 2020, see App. A001-05, and a timely petition
for rehearing en banc was denied on August 28, 2020, see App. A006. The
jurisdiction of this Court is invoked pursuant to 62 Stat. 928, 28 U.S.C. §
1254(1).

III.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fifth Amendment to the United States Constitution provides in
pertinent part:
No person shall . . . be deprived of life, liberty, or
property without due process of law; . . . .
The Sixth Amendment to the United States Constitution provides in
pertinent part:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial jury
....
Section 2K2.1 of the sentencing guidelines provides in pertinent part:
§ 2K2.1

...
(c)

Unlawful Receipt, Possession, or
Transportation of Firearms or
Ammunition; Prohibited Transactions
Involving Firearms or Ammunition)
Cross Reference
(1) If the defendant used or possessed any
2

firearm or ammunition cited in the
offense of conviction in connection with
the commission or attempted
commission of another offense, or
possessed or transferred a firearm or
ammunition cited in the offense of
conviction with knowledge or intent that
it would be used or possessed in
connection with another offense,
apply—
(A) § 2X1.1 (Attempt, Solicitation, or
Conspiracy) in respect to that
other offense, if the resulting
offense level is greater than that
determined above; or
...
Section 2X1.1 of the sentencing guidelines provides in pertinent part:
§ 2X1.1

Attempt, Solicitation, or Conspiracy (Not
Covered by a Specific Offense Guideline)

...
(c)

Cross Reference
(1) When an attempt, solicitation, or
conspiracy is expressly covered by
another offense guideline section, apply
that guideline section.
...

Section 2A2.1 of the sentencing guidelines provides in pertinent part:
§ 2A2.1
(a)

...

Assault With Intent To Commit Murder;
Attempted Murder
Base Offense Level
(1) 33, if the object of the offense would
have constituted first degree murder; or
(2) 27, otherwise.

18 U.S.C. § 922(g) provides, in pertinent part:
It shall be unlawful for any person—
(1) who has been convicted in any court of,
a crime punishable by imprisonment for a term
exceeding one year;
(g)

3

...
(5)

who, being an alien—
(A) is illegally or unlawfully in the
United States;
...
to . . . possess in or affecting commerce, any firearm or
ammunition; . . . .
18 U.S.C. § 924(a)(2) provides, in pertinent part:
(2) Whoever knowingly violates subsection (a)(6),
(d), (g), (h), (i), (j), or (o) of section 922 shall be fined as
provided in this title, imprisoned not more than 10 years, or
both.
...
Rule 29(a) of the Federal Rules of Criminal Procedure provides, in
pertinent part:
(a) Before Submission to the Jury. After the
government closes its evidence or after the close of all the
evidence, the court on the defendant’s motion must enter a
judgment of acquittal of any offense for which the evidence
is insufficient to sustain a conviction. The court may on its
own consider whether the evidence is insufficient to sustain
a conviction. If the court denies a motion for a judgment of
acquittal at the close of the government’s evidence, the
defendant may offer evidence without having reserved the
right to do so.
Rule 52 of the Federal Rules of Criminal Procedure provides, in
pertinent part:
(a) Harmless Error. Any error, defect,
irregularity, or variance that does not affect substantial
rights must be disregarded.
(b) Plain Error. A plain error that affects
substantial rights may be considered even though it was not
brought to the court’s attention.

4

IV.
STATEMENT OF THE CASE

A.

JURISDICTION IN THE COURTS BELOW.

The district court had jurisdiction under 18 U.S.C. § 3231. The court of
appeals had jurisdiction under 28 U.S.C. § 1291.

B.

FACTS MATERIAL TO CONSIDERATION OF THE QUESTIONS

PRESENTED.

1.

Arrest, Indictment, and Trial.

Petitioner was arrested after a struggle with a United States Forest
Service officer during which several shots were fired from the officer’s gun.
App. A036. Petitioner was subsequently indicted for assault on a federal
officer, in violation of 18 U.S.C. § 111(b); attempted murder of a federal
officer, in violation of 18 U.S.C. §§ 1111, 1113, and 1114; discharge of a
firearm during the assault and attempted murder, in violation of 18 U.S.C. §
924(c); attempted robbery of the officer’s firearm, in violation of 18 U.S.C. §
2112; attempted robbery of the officer’s vehicle, in violation of 18 U.S.C. §
2112; being a felon in possession of a firearm, in violation of 18 U.S.C. §
922(g)(1); being an illegal alien in possession of a firearm, in violation of 18
U.S.C. § 922(g)(5)(A); and being found in the country illegally after having
been deported, in violation of 8 U.S.C. § 1326. App. A036.
5

To support the felon in possession of a firearm count, the illegal alien in
possession of a firearm counts, and the illegal reentry count, the government
introduced a stipulation. See App. A027-32. The stipulation established the
elements of the illegal reentry offense and also the status for the unlawful
firearm possession counts, i.e., that Petitioner had a prior felony conviction
and was in the country illegally. See App. A027-32. There was no other
evidence introduced about Petitioner’s felony conviction, and just some
tangential references to his entry and presence in the United States. App.
A040.1
After lengthy deliberations, several jury notes, and an “Allen charge,”
the jury reached a verdict on most, but not all, counts. See App. A041, It
found Petitioner guilty on the assault count, the 18 U.S.C. § 924(c) count, the
attempted robbery counts, the felon and illegal alien in possession of firearm

1

A man who had been with Petitioner testified in a material witness
deposition that, “I came illegally through the desert,” that Petitioner and others
were with him when he came, and that they crossed over with marijuana. App.
A040. A sheriff’s detective who had participated in a post-arrest interrogation
of Petitioner claimed Petitioner admitted in the interrogation that he was in the
country illegally, but the actual transcript of the interrogation which was
introduced contained no such admission. App. A040. Petitioner did indicate
he had crossed the border by using a ladder to go over the fence, but he did not
say that was because he could not be in the country legally rather than because
his companion could not enter or because of the marijuana. App. A040.
Petitioner indicated he had wanted to avoid the Border Patrol, but he did not
say that was because of his illegal presence rather than his companion’s illegal
presence. App. A040-41. He said the reason he resisted when the Forest
Service officer tried to handcuff him was that he did not want to go to “the
can,” but he did not say he thought he could be jailed for being in the country
illegally rather than for his non-compliance with the officer’s orders. App.
A041.
6

counts, and the illegal reentry count. App. A041. It was unable to reach a
verdict on the attempted murder count, and the court declared a mistrial on that
count. App. A041.

2.

Sentencing.

Despite the failure to convict Petitioner of the attempted murder count,
the government sought to apply the sentencing guideline for attempted murder.
See App. A044. It sought to do this through the guideline for the felon and
illegal alien in possession of firearm counts – § 2K2.1. See App. A043-44.
That guideline has a “cross reference” which requires application of the
attempt guideline in § 2X1.1 when the firearm is used in the attempted
commission of another offense. See U.S.S.G. § 2K2.1(c)(1). The government
argued Petitioner had committed attempted first degree murder and the court
should use the guideline for that offense under the § 2K2.1 cross reference.
See App. A044, A048.
Petitioner argued it was improper to apply the attempted murder
guideline when the jury had not convicted Petitioner of the attempted murder
charge. App. A043. He also argued factually that there was only the assault,
not an attempted murder. App. A044. He further argued that any attempted
murder which had been committed was second degree rather than first degree.
See App. A043, A047-48.
The district court rejected the defense arguments and applied the
attempted first degree murder guideline. At a first sentencing, the court stated:
The Court is aware that the jury deadlocked on the
7

attempted murder charge. However, in my review of the
evidence, the Court finds that there is clear and convincing
evidence of that, his relevant conduct.
App. A009. And the court made the same finding at a resentencing following
remand after a first appeal:2
I’m adopting my previous analysis that I conducted, after
hearing from counsel, last time when I sentenced this
defendant. I think there is clear and convincing evidence
that this defendant was attempting to commit the crime of
murder.
App. A012
This finding – accompanied by a finding that there was premeditation
that made the attempted murder first degree, see App. A009, A014 –
dramatically increased Petitioner’s sentencing guidelines offense level and
guideline range – to 413 and 360 months to life, respectively. See App. A04445. Combining this range with the mandatory consecutive sentence required
for the 18 U.S.C. § 924(c) count, the court imposed a total sentence of 520
months. App. A045; see also A048.

2

The first appeal challenged only Petitioner’s convictions. See United
States v. Ornelas, 906 F.3d 1138 (9th Cir. 2018), cert. denied, 139 S. Ct. 2638
(2019). The court affirmed the assault conviction, the firearms convictions,
and the illegal reentry conviction, but vacated the attempted robbery
convictions and remanded, which led to the resentencing. See id.
3

The attempted first degree murder guideline by itself simply increased
the “base offense level” to 33, see U.S.S.G. § 2A2.1(a)(1), but other
enhancements increased the offense level further, see App. A043, A045, A048.
The base offense level for attempted second degree murder is only 27, see
U.S.S.G. § 2A2.1(a)(2), and the base offense level for aggravated assault is 14,
see U.S.S.G. § 2A2.2(a).
8

3.

This Appeal.

Petitioner filed this second appeal, see supra p. 8 & n.2, after the
resentencing. He persisted in his argument that it was improper to base the
guideline calculation on the attempted murder guideline when an attempted
murder charge was tried to, but not found by, the jury. See App. A058-62. He
also raised multiple challenges based on the Supreme Court’s intervening
decision in Rehaif v. United States, 139 S. Ct. 2191 (2019), in which the Court
held 18 U.S.C. § 922(g) requires proof of not just the status that bars
possession of a firearm – in this case, having been convicted of a crime
punishable by imprisonment for a term exceeding one year, see 18 U.S.C. §
922(g)(1), and being present in the country illegally, see 18 U.S.C. §
922(g)(5)(A) – but also proof of knowledge of the status. See App. A050-57
He argued that, first, there was insufficient evidence to support the convictions
because there was insufficient evidence of knowledge of the status, see App.
A051-55, and, second, the indictment and jury instructions were deficient
because they failed to allege and require a finding of such knowledge, see
App. A056-57. He conceded the indictment and instructions challenges could
be reviewed only for plain error, but argued the sufficiency of evidence was
reviewed de novo, because he had made a general motion for judgment of
acquittal “on each and every count because the Government has failed to carry
it’s [sic] burden of proving each and every element of those counts.” App.
A016, A050-51.
The government agreed with Petitioner’s statement of the standard of
review, see App. A083, but argued against Petitioner on the merits. On the
9

due process sentencing issue, the government argued it is well established that
courts can sentence a defendant based on conduct he was not convicted of.
See App. A092-95. On the Rehaif issues, it argued the evidence was sufficient
because the stipulation not only established the status but justified an inference
of knowledge of the status, see App. A084-89.4 and the deficiencies in the
indictment and instructions were not sufficiently prejudicial to satisfy the
requirements of the plain error standard, see App. A089-92. The government
subsequently added an argument – in a supplemental authority letter citing
United States v. Johnson, 963 F.3d 847 (9th Cir. 2020)5 – that the court could
consider evidence outside the trial record and there was uncontroverted
evidence in the presentence report that Petitioner had been sentenced to more
than a year in prison. See App. A103-04.
The court of appeals rejected Petitioner’s claims in a short unpublished
opinion. On the sentencing claim, it held the attempted murder conduct could
be considered even though there was no conviction, based on United States v.
Watts, 519 U.S. 148 (1997) (per curiam). See App. A004. On the Rehaif
claims, it held Petitioner “cannot satisfy the third and fourth prongs of the
plain error test.” App. A003.
He stipulated to a prior felony conviction, for which he
received a 30-month sentence, according to the revised
presentence report. See Johnson, 963 F.3d at 854
(concluding that uncontroverted evidence that defendant

4

For the illegal alien in possession count, it also pointed to some of the
additional evidence noted supra p. 6 n.1.
5

This Johnson opinion was subsequently withdrawn and replaced by
United States v. Johnson, 979 F.3d 632 (9th Cir. 2020), which reaches the
same result based on different reasoning, see id. at 636.
10

was sentenced to more than a year in prison “will ordinarily
preclude” satisfaction of the fourth prong). Moreno also
stipulated that he was not a U.S. citizen and was in the
country without the Attorney General’s consent. There is
no reasonable probability that, but for the omission in the
indictment, the jury would have reached a different verdict
on the possession charges. For this reason, the error did not
affect Moreno’s substantial rights, nor the fairness,
integrity, or public reputation of the trial. (Citation
omitted.) And for the same reason, the district court did not
plainly err in determining the evidence was sufficient to
support Moreno’s convictions.
App. A003. The court applied the plain error standard even to the sufficiency
of evidence claim because Petitioner “did not raise a Rehaif challenge when
moving for acquittal in the district court.” App. A002. It did add in a footnote
that it would reject the challenge even if it were preserved because “a ‘rational
trier of fact’ could find Moreno knew of his prohibited status beyond a
reasonable doubt,” App. A003-04 n.2, but provided no additional analysis of
the evidence to support this.

IV.
REASONS FOR GRANTING THE WRIT

This petition should be granted because it presents multiple issues on
which the lower courts are split and on which this Court should clarify the law.
First, the petition presents the question of whether a court may directly base a
sentence on an offense which was tried to but not found by the jury in the case.
There is at least a tension, if not an outright conflict, between the Court’s
summary per curiam opinion in Watts, which considered only double jeopardy
concerns, and the Court’s more recent opinion on the scope of the presumption

11

of innocence in Nelson v. Colorado, 137 S. Ct. 1249 (2017). There are also
several state court opinions which create a split in the lower courts.
Second, this petition presents multiple questions regarding the
application of this Court’s recent holding in Rehaif to pre-Rehaif trials. These
questions include (a) whether a general motion of judgment of acquittal
preserves a Rehaif sufficiency of evidence challenge so review of such a
challenge is not limited to plain error; (b) whether a reviewing court is
permitted to look outside the trial record to the extent the plain error standard
does apply; and (c) whether, if the reviewing court is limited to the trial record,
a stipulation to status is sufficient to support an inference of knowledge of
status. The courts of appeals are divided on all of these questions and this
petition presents an excellent vehicle for resolving them.

A.

THE PETITION SHOULD BE GRANTED TO RESOLVE THE

IMPORTANT QUESTION OF WHETHER A SENTENCE MAY BE
ENHANCED FOR AN OFFENSE TRIED TO BUT NOT FOUND BY THE
JURY.

1.

Whether a Sentence May Be Enhanced for an Offense Tried to

But Not Found by the Jury Is an Important Question About Which There Is
Uncertainty and on Which this Court Should Clarify the Law.

All of the federal circuits have held that even conduct of which the jury
has acquitted the defendant – and, presumably, conduct on which a jury simply
could not reach a verdict – can be considered at sentencing. See United States
12

v. White, 551 F.3d 381, 384-86 (6th Cir. 2008) (en banc) (collecting cases).6
They have so held based on Watts, see White, 551 F.3d at 385, in which this
Court rejected a double jeopardy challenge to the use of acquitted conduct to
enhance the sentence, see Watts, 519 U.S. at 154-55.
Watts does not bear the weight the courts have placed on it, however.
Initially, Watts was a per curiam summary reversal, which is “less
constrain[ing]” then an opinion rendered with full briefing and argument,
Hohn v. United States, 524 U.S. 236, 251 (1998). See also Watts, 519 U.S. at
170 (Kennedy, J., dissenting) (observing that majority opinion “show[ed]
hesitation” in confronting question of acquitted conduct and issue “ought to be
confronted by a reasoned course of argument”). Secondly, this Court has itself
emphasized the narrowness of the holding in Watts. As the Court explained in
United States v. Booker, 543 U.S. 220 (2005), Watts “presented a very narrow
question regarding the interaction of the [Sentencing] Guidelines with the
Double Jeopardy Clause, and did not even have the benefit of full briefing or
oral argument.” Booker, 543 U.S. at 240 n.4.
Finally, Watts must be read in light of this Court’s recent opinion in
Nelson. Nelson considered a different constitutional protection – the
presumption of innocence – in a different context. The appellants in Nelson
were defendants who initially had been convicted of criminal offenses and

6

Individual judges within the circuits are not unanimous, however, with
a number of judges dissenting from this view. See, e.g., United States v.
Lasley, 832 F.3d 910, 920-21 (8th Cir. 2016) (Bright, J., dissenting); White,
551 F.3d at 392 (Merritt, J., dissenting); United States v. Mercado, 474 F.3d
654, 662 (9th Cir. 2007) (Fletcher, J., dissenting); United States v. Faust, 456
F.3d 1342, 1349 (11th Cir. 2006) (Barkett, J., specially concurring).
13

sentenced both to prison and to pay various monetary penalties. See id., 137 S.
Ct. at 1253. Some or all of their convictions were reversed on appeal and, in
one instance, the appellant was acquitted in a new trial, and, in the other
instance, the state chose not to retry the appellant. See id. The state
nonetheless refused to return the money the appellants had paid to satisfy the
monetary penalties because a state statute required the appellants to
affirmatively prove their innocence by clear and convincing evidence. See id.
at 1253-54.
The Court held this violated both due process and the presumption of
innocence.
[O]nce those convictions were erased, the presumption of
[the appellants’] innocence was restored. [A]xiomatic and
elementary, the presumption of innocence lies at the
foundation of our criminal law. Colorado may not retain
funds taken from [the appellants] solely because of their
now-invalidated convictions, for Colorado may not
presume a person, adjudged guilty of no crime, nonetheless
guilty enough for monetary exactions.
Id. at 1255-56 (citations, footnotes, and internal quotation marks omitted)
(emphasis in original).
This reasoning extends to the enhancement of Petitioner’s sentence for
an attempted murder which the jury expressly considered but on which it could
not reach a verdict and which the government thereafter dismissed. Here,
there was not even an original conviction and restoration of a previously
overcome presumption of innocence when the original conviction was erased.
There was no conviction at all, so the presumption of innocence was not
overcome even initially. Just as the appellants in Nelson were not, “adjudged
guilty of no crime, nonetheless guilty enough for monetary exactions,”

14

Petitioner, adjudged guilty of no attempted murder, cannot be guilty enough
for a sentence enhancement. And Watts is not to the contrary. Just as the
question considered in Booker – whether a mandatory sentencing guidelines
enhancement based on conduct not found by a jury violates the Sixth
Amendment right to trial by jury – “was not presented” in Watts, Booker, 543
U.S. at 240, the question suggested by Nelson and presented in this petition –
whether a sentence may be enhanced when the presumption of innocence has
not been overcome – was not presented in Watts.7
Several members of this Court have recognized the need for clarification
in this area. Justice Scalia, dissenting from the denial of certiorari and joined
by Justices Thomas and Ginsburg, highlighted the need to resolve whether the
Due Process Clause and Sixth Amendment permit the consideration of charges
not found by a jury in dissenting from the denial of certiorari in Jones v.
United States, 574 U.S. 948 (2014). He noted “[t]he Sixth Amendment,
together with the Fifth Amendment’s Due Process Clause ‘requires that each
element of a crime’ be either admitted by the defendant, or ‘proved to the jury

7

To the extent Watts could be viewed as having sub silentio decided
the question, it can and should be reconsidered. First, stare decisis is “at its
weakest when [the Court] interpret[s] the Constitution.” Franchise Tax Bd. of
Cal. v. Hyatt, 139 S. Ct. 1485, 1499 (2019) (internal quotation marks omitted).
Second, this Court has held itself “less constrained” when an opinion was
rendered without full briefing or argument, Hohn v. United States, 524 U.S. at
251, as Watts was. Third, there is no reliance interest that would be undercut
here; if the government wants to use a charged offense on which the jury did
not reach a verdict, it can retry the charge. Cf. Alleyne v. United States, 570
U.S. 99, 118-19 (2013) (Sotomayor, J., concurring) (noting reliance interest
minimal where government has already tried to prove underlying acquitted
conduct to jury).
15

beyond a reasonable doubt.’” Id. at 948 (Scalia, J., dissenting from denial of
certiorari) (quoting Alleyne v. United States, 570 U.S. 99, 104 (2013)). He
noted the Court had “left for another day” the question of whether an
otherwise unreasonable sentence could be upheld based on judge-found facts
and complained “the Courts of Appeals have uniformly taken our continuing
silence to suggest that the Constitution does permit otherwise unreasonable
sentences supported by judicial fact-finding.” Jones, 574 U.S. at 949
(emphasis in original). He concluded that the question of considering conduct
presented to but not found by a jury was a “particularly appealing” question
for the Court to review and the Court should “put an end to the unbroken
string of cases disregarding the Sixth Amendment.” Id. at 949-950.
Justice Gorsuch and Justice Kavanaugh expressed similar concerns
while sitting as circuit judges. Then-Judge Gorsuch cited Justice Scalia’s
dissent in Jones and opined that “[i]t is far from certain” that the Constitution
allows the enhancement of a sentence based on facts the judge finds without
the aid of a jury or the defendant’s consent. United States v. Sabillon-Umana,
772 F.3d 1328, 1331 (10th Cir. 2014) (Gorsuch, J.). Then-Judge Kavanaugh
opined that “[a]llowing judges to rely on acquitted or uncharged conduct to
impose higher sentences than they otherwise would impose seems a dubious
infringement of the rights to due process and to a jury trial.” United States v.
Bell, 808 F.3d 926, 928 (D.C. Cir. 2015) (Kavanaugh, J., concurring in denial
of rehearing en banc).

16

2.

There Is a Split of Authority Created by State Court Decisions

Regarding Acquitted Conduct Which Extends to Conduct on Which the Jury
Did Not Reach a Verdict.

Review by this Court is also warranted because there is a split of
authority created by state court decisions regarding acquitted conduct which
extends to conduct on which the jury did not reach a verdict. As
acknowledged supra pp. 12-13, the federal courts are agreed that acquitted
conduct may be used to enhance a sentence. But several state courts have held
to the contrary. Those include the Supreme Courts of Michigan, New
Hampshire, and North Carolina.
Further, these courts have relied in large part, if not entirely on the
presumption of innocence which drove this Court’s Nelson decision. The New
Hampshire Supreme Court, quoting from a nineteenth-century opinion of this
Court, explained:
The concept [of acquittal] is intertwined with the notion, so
central to our system of justice, that until guilt is proven
beyond a reasonable doubt, a defendant is innocent:
“[The presumption of innocence] is an
instrument of proof created by the law in favor
of one accused, whereby his innocence is
established until sufficient evidence is
introduced to overcome the proof which the
law has created. This presumption on the one
hand, supplemented by any other evidence he
may adduce, and the evidence against him on
the other, constitute the elements from which
the legal conclusion of his guilt or innocence
is to be drawn.”
State v. Cote, 530 A.2d 775, 784 (N.H. 1987) (quoting Coffin v. United States,
156 U.S. 432, 459 (1895)) (emphasis added in Cote). The New Hampshire

17

court then spoke of “charges in which that presumption has not been
overcome” and reasoned that “[i]t is a presumption of innocence and
innocence means “absence of guilt.’” Cote, 530 A.2d at 785 (quoting Black’s
Law Dictionary 708, and adding emphasis).
The North Carolina Supreme Court reasoned similarly. It also noted the
presumption of innocence and quoted Coffin’s description of the presumption
as “an instrument of proof . . . whereby [the defendant’s] innocence is
established until sufficient evidence is introduced to overcome the proof.”
State v. Marley, 364 S.E.2d 133, 139 (N.C. 1988) (quoting Coffin, 156 U.S. at
459). It also spoke of the presumption of innocence having “not [been]
overcome” at trial. Marley, 364 S.E.2d at 139.
Finally, the Michigan Supreme Court held similarly in a post-Watts
decision. See People v. Beck, 939 N.W.2d 213 (Mich. 2019), cert. denied, 140
S. Ct. 1243 (2020). The Michigan court found Watts unhelpful because “[f]ive
justices gave it side-eye treatment in Booker and explicitly limited it to the
double-jeopardy context.” Beck, 939 N.W.2d at 224. It pointed instead to the
New Hampshire and North Carolina opinions, which it described as grounded
“in the guarantees of fundamental fairness and the presumption of innocence.”
Id. at 225 (citing Cote and Marley). It quoted the North Carolina court’s
reasoning that “[t]o allow the trial court to use at sentencing an essential
element of a greater offense as an aggravating factor, when the presumption of
innocence was not, at trial, overcome as to this element, is fundamentally
inconsistent with the presumption of innocence itself.” Beck, 939 N.W.2d at
225 (quoting Marley, 364 S.E.2d at 139). It also noted the extensive criticism
of reliance on acquitted conduct by both jurists and commentators. See Beck,
18

939 N.W.2d at 225-26. It then held, “This ends here.” Id. at 226. Cf. Jones v.
United States, 574 U.S. at 949 (Scalia, J., dissenting from denial of certiorari)
(“This has gone on long enough.”).
While the conduct considered by these state courts was conduct the jury
had actually acquitted the defendant of, the courts’ presumption of innocence
reasoning logically extends to conduct on which the jury simply failed to reach
a verdict. The presumption of innocence remains standing and is “not
overcome” until there is a verdict of guilty. It certainly remains standing and
is not overcome if there is an acquittal. But it also remains standing and is not
overcome if the jury cannot reach a verdict. As explained by this Court in
Coffin, “[the defendant’s] innocence is established until sufficient evidence is
introduced to overcome” the presumption. Id., 156 U.S. at 459, quoted in
Cote, 530 A.2d at 784, and Marley, 364 S.E.2d at 139.8

8

The New Hampshire and Michigan opinions could be read as
suggesting consideration of conduct in which a jury did not reach a verdict
might be proper. See Beck, 939 N.W.2d at 225 (suggesting no constitutional
impediment to enhancement “[w]hen a jury has made no findings (as with
uncharged conduct, for example)”); Cote, 530 A.2d at 784 (“It is of course
well-settled in most jurisdictions that a trial court may consider evidence of
pending charges, as well as charges that have fallen short of conviction, in
determining sentencing.”). But the opinions were, in the case of the New
Hampshire opinion, acknowledging the rule “in most jurisdictions,” Cote, 530
A.2d at 784, and in the case of the Michigan opinion, focusing on the example
of “uncharged conduct,” not charged conduct on which the jury could not
reach a verdict, Beck, 939 N.W.2d at 225. The courts did not have before them
conduct which was tried to a jury without a verdict being reached. They also
suggested no distinction between a failure to overcome the presumption of
innocence that produces an acquittal and a failure to overcome the
presumption of innocence that produces a hung jury.
19

3.

This Case Is an Excellent Vehicle for Deciding the Question

Presented Because the Sentencing Guidelines and the District Court in this
Case Directly Relied on the Sentencing Guideline for the Charged Offense on
Which the Jury Failed to Reach a Verdict.

This case is an excellent vehicle to decide the question presented
because it presents the question in its purest form. It is not just conduct
underlying the other offense, or some of the elements of that offense, that the
sentencing guideline which was applied here uses. It is the actual offense.
The guideline provision the district court applied is a “cross reference” that
instructs the court to use the attempt guideline, see U.S.S.G. § 2K2.1(c)(1),
which in turn instructs the court to use the guideline for the other offense, see
U.S.S.G. § 2X1.1(a),(c). This means going directly to the attempted murder
guideline when that is the offense in which the defendant used the firearm.
And that is exactly what the district court here did. Where the jury
failed to reach a verdict and find Petitioner guilty of the attempted murder
charge, the district judge did just that. She found “there is clear and
convincing evidence that this defendant was attempting to commit the crime of
murder.” App. A012. See also App. A009 (court stating at first sentencing
that it was “aware that the jury deadlocked on the attempted murder charge,”
but “in my review of the evidence, the Court finds that there is clear and
convincing evidence of that”). The court thus found the very offense which
was tried to, but not found, by the jury. It “convicted” Petitioner and then
sentenced him for the very offense for which the government did not overcome
the presumption of innocence at trial.
20

B.

THE PETITION SHOULD BE GRANTED TO RESOLVE SPLITS IN

THE LOWER COURTS ON MULTIPLE IMPORTANT QUESTIONS
REGARDING CONVICTIONS INFECTED BY ERROR UNDER REHAIF.

There are also three circuit splits in the application of Rehaif that are
implicated by Petitioner’s convictions for felon in possession of a firearm and
illegal alien in possession of a firearm. The petition should be granted to
resolve those splits, or, alternatively, held pending this Court’s resolution of
multiple other cases implicating or potentially implicating these circuit splits.

1.

The Question of Whether Failure to Specifically Make a Rehaif

Argument in a General Motion for Judgment of Acquittal Limits Review of a
Sufficiency of Evidence Claim to Review for Plain Error Is an Important
Question on Which the Circuits Are Split.

The first issue on which there is a circuit split – and which counsel is
not certain is directly raised in another petition – is whether the plain error
standard of review fully applies to Rehaif claims such as Petitioner’s.
Petitioner has conceded the plain error standard applies to review of his claims
of deficient jury instructions and a deficient indictment, but has not conceded
it applies to the sufficiency of evidence claim. And there is a clear split in the
circuits on this question. At least the Seventh Circuit and Eleventh Circuit
have applied de novo review to sufficiency of evidence claims based on Rehaif
when there has been only a general motion for judgment of acquittal, as there
was in Petitioner’s case. See United States v. Staggers, 961 F.3d 745, 754 (5th
21

Cir.), cert. denied, 208 L. Ed. 2d 103 (2020); United States v. Maez, 960 F.3d
949, 959 (7th Cir. 2020), petition for cert. pending, No. 20-6129 (filed Oct. 19,
2020), and No. 20-6227 (filed Oct. 28, 2020). See also United States v.
Owens, 966 F.3d 700, 709 (8th Cir. 2020) (“assum[ing] for the sake of
analysis” that general motion sufficient), petition for cert. pending, No. 206098 (filed Oct. 13, 2020). But the Ninth Circuit – in both this case and the
published opinion of United States v. Johnson, 979 F.3d 632 (9th Cir. 2020) –
has held review of a Rehaif sufficiency of evidence claim is always limited to
review for plain error. See Johnson, 979 F.3d at 636; App. A002-03 (panel
opinion).
This is an important question that the Court should resolve because it is
the first question in the analysis that leads to the other questions. As the Third
Circuit recognized in United States v. Nasir, ___ F.3d ___, 2020 WL 7041357
(3d Cir. Dec. 1, 2020) (en banc) – discussed in more detail infra pp. 25-28 –
“no one questions that if [a court was] reviewing a sufficiency-of-the-evidence
objection that had been preserved at trial, [its] review would be confined to the
trial record.” Id., 2020 WL 7041357, at *12. That makes it critical to resolve
what must be done to preserve the objection.
And it is the Seventh Circuit and Eleventh Circuit that are correct on
this question – in their holdings that a general motion is sufficient – not the
Ninth Circuit – in its holding that there had to be a specific Rehaif argument.
It is hornbook law that “[s]pecificity is not required by Rule 29 [of the Federal
Rules of Criminal Procedure],” which is the rule governing motions for
judgment of acquittal. 2A Charles Alan Wright and Arthur R. Miller, Federal
Practice and Procedure: Criminal § 466 (4th ed. 2009). As explained in an
22

opinion by then-Judge, later Justice, Minton:
[A motion for judgment of acquittal] is a challenge to the
Government in the presence of the court that the
Government has failed in its proof. The motion is not
required by the rules to be in writing or to specify the
grounds therefor. That in itself would indicate that the
defendant is not required to go over the proof for the
benefit of the Government or the court, in the absence of
some request for more specific objection.
United States v. Jones, 174 F.3d 746, 748 (7th Cir. 1949). Or, as similarly
explained in United States v. Gjurashaj, 706 F.2d 395 (2d Cir. 1983):
[T]he very nature of [motions for judgment of acquittal] is
to question the sufficiency of the evidence to support a
conviction. Thus, when a defendant moves for acquittal,
even without specificity as to the grounds, it is incumbent
upon the government to review its proof as to the facts
required to establish each element of each offense alleged.
Its neglect to do so is not a charge upon the defendant.
Id. at 399 (citations and footnotes omitted).
This view is also supported by the language of Federal Rule of Criminal
Procedure 29, which, as pointed out by Justice Minton, places no requirements
on motions for judgment of acquittal. See Fed. R. Crim. Pro. 29(a) (referring
to “the defendant’s motion” and “a motion,” and placing no requirements on
form or content of motion). This contrasts with comparable civil rules – such
as Federal Rule of Civil Procedure 7(b)(1), which expressly requires motions
to “state with particularity the grounds for seeking the order,” and Federal
Rule of Civil Procedure 50(a)(2), which expressly requires motions for
judgment as a matter of law to “specify the judgment sought and the law and
facts that entitle the movant to the judgment.” See Wright and Miller, supra p.
22, § 466 (noting that “the Criminal Rules differ from the Civil Rules”). This
contrast triggers the principle that omission of language in one provision that

23

is included in another is presumed to be intentional. Dean v. United States,
556 U.S. 568, 573 (2009) (quoting Russello v. United States, 464 U.S. 16, 23
(1983)). And the advisory committee‘s note directly indicates such intent, by
describing the criminal rule as “substantially the same” as the civil rule,
“except that it . . . does not require that the grounds upon which a motion is
made shall be stated ‘with particularity.’” Fed. R. Crim. Pro. 47 advisory
committee‘s note.

2.

The Question of Whether a Court Is Permitted to Look Outside

the Trial Record to the Extent the Plain Error Standard Does Apply Is an
Important Question on Which the Circuits Are Split.

Application of the plain error standard to Petitioner’s deficient
indictment and instruction claims – and to the sufficiency of evidence claim if
the lower court below was correct in applying it to that claim as well – leads to
another important issue on which the circuits are split. That is whether a
reviewing court may look to evidence outside the record in applying the third
and/or fourth prongs of the plain error standard. This question, unlike the
preceding one, is raised in a number of pending petitions for writ of certiorari.
See Memorandum for the United States, at 2 n.1 (collecting petitions), Burden
v. United States, No. 20-5939 (U.S. Nov. 6, 2020).
Most circuits, including the Ninth Circuit in which Petitioner’s appeal
lay, have held a court is permitted to look outside the record. See Johnson,
979 F.3d at 637-38; Owens, 966 F.3d at 706-07; Maez, 960 F.3d at 961;
United States v. Ward, 957 F.3d 691, 695 & n.4 (6th Cir. 2020); United States
24

v. Miller, 954 F.3d 551, 560 (2d Cir. 2020); United States v. Reed, 941 F.3d
1018, 1021 (11th Cir. 2019), petition for cert. pending, No. 19-8679 (filed
June 8, 2020). But the Third Circuit, sitting en banc in Nasir, held that “basic
constitutional principles require us to consider only what the government
offered in evidence at the trial, not evidence it now wishes it had offered.” Id.,
2020 WL 7041357, at *11.
First, Nasir rejected some of the other circuits’ reliance on United States
v. Vonn, 535 U.S. 55 (2002), in which this Court looked outside the record of a
guilty plea to ascertain whether the plea was knowing and voluntary, see id. at
75. It noted that the voluntariness of the guilty plea is in “a procedural posture
that is completely unlike the review of a conviction following trial.” Id., 2020
WL 7041357, at *14. It then reasoned:
The question is quite different when reviewing
whether the Government has borne at a trial – or even at a
plea proceeding – its burden to “convince the trier [of fact]
of all the essential elements of guilt.” [In re] Winship, 397
U.S. [358,] 361 [(1970)] (citation omitted). In that
procedural setting, due process and Sixth Amendment
considerations compel us to focus our inquiry on the
information presented to the trier of fact – in this case, the
jury. Vonn is inapposite where, as here, we are concerned
not with the facts possessed by the defendant and their
effect on the voluntariness of his plea but with the
information presented to the fact-finder to prove an element
of the charged offense. Put differently, when there has
been a plea rather than a trial, no one is concerned about or
mentions the adequacy of the trial record because there is
none. Likewise, however, when there has been a trial and
an utter failure of proof is at issue, it is simply beside the
point to rely on case law dealing with the voluntariness of
plea colloquies.
Nasir, 2020 WL 7041357, at *15 (footnotes omitted).
Second, Nasir rejected an alternative rationale adopted by other circuits
“that the defendant is obviously guilty and the justice system will not appear to
25

have served justice if, through no fault of the prosecution, the defendant is
freed on the technicality that proof of a previously unknown element of the
offense was not offered in evidence. (Footnote omitted.)” Id. Nasir explained
this rationale fails for several reasons. Initially, “it treats judicial discretion as
powerful enough to override the defendant’s right to put the government to its
proof when it has charged him with a crime,” and “impl[ies] that relief on
plain-error review is available only to the innocent.” Id., 2020 WL 7041357,
at *17. Secondly, the concern about public perception that defendants were
being freed on “technicalities” uses a buzzword which “is too often used to
denigrate a principal that stands between an advocate and a preferred result.”
Id.
Given the imperative of due process and “[i]n view of the
place of importance that trial by jury has in our Bill of
Rights,” it should not be supposed that “the belief of
appellate judges in the guilt of an accused, however
justifiably engendered by the dead record, [can be
substituted] for ascertainment of guilt by a jury under
appropriate judicial guidance, however cumbersome that
process may be.”
Id. (quoting Bollenbach v. United States, 326 U.S. 607, 614-15 (1946)).
Finally, there is a countervailing concern in evaluating the effect on the
“fairness, integrity or public reputation of judicial proceedings,” prong, United
States v. Olano, 507 U.S. 725, 736 (1993), of the plain error standard.
Members of the public know that the government is
supposed to prove a defendant’s guilt at trial. Everybody
acknowledges that that was not done in this case, though it
was nobody’s “fault.” Were we to ignore that breach of
due process and then try to explain our choice by saying,
“well, we all know he’s guilty,” it should not sit well with
thoughtful members of the public. Nor should our taking
over the jury’s role, for the sake of efficiency.
Disregarding constitutional norms may be taken as
tantamount to saying that rules constraining the
26

government really don’t count when we just know someone
is guilty. (Footnote omitted.) That is a message likely to
call into question the fairness, integrity, and reputation of
the justice system.
Nasir, 2020 WL 7041357, at *23.
While the other circuits presumably disagree with the reasoning in
Nasir, there is certainly a clear split. And it is a split that likely will affect the
vast majority of felon in possession of a firearm defendants. The sentencing
record in most defendants’ cases will probably show the defendant actually
served more than a year of imprisonment, see, e.g., Nasir, 2020 WL 7041357,
at *33 (Porter, J., dissenting); Johnson, 979 F.3d at 638-39, which clearly
establishes the required knowledge, and, where that is not the case, there may
be other records establishing the knowledge. Such similarly situated
defendants should not be treated differently depending on the circuit in which
they were convicted.

3.

The Question of Whether a Stipulation to the Fact of Status Is

Sufficient Evidence to Establish the Knowledge of Status Which Rehaif
Requires Is an Important Question on Which the Circuits Are Split.

There is then a split in the circuits on a final question which must be
reached if evidence outside the trial record cannot be considered – either
because the plain error standard does not apply, as argued supra pp. 22-24, or
because even plain error review does not allow consideration of evidence
outside the record, as argued supra pp. 25-27. This final question is whether a
stipulation to status is sufficient evidence from which a jury could infer

27

knowledge of the status. That issue is presented here because the stipulation
was the only evidence from the trial record to which the lower court pointed.9
On one side of the split is a firm and clear position taken in Nasir. It
held that a stipulation to status “will not, on its own, suffice to prove that, at
the relevant time, the defendant had knowledge of his status as a person
prohibited to possess a firearm,” because “[a]ll the stipulation demonstrates is
that [the defendant] knew he was a felon at the time he signed the stipulation.”
Id., 2020 WL 7041357, at *20. The court explained in rejecting the
government’s contrary argument:
Rehaif itself blocks that line of reasoning. (Footnote
omitted.) The Supreme Court said there that it did not
believe “Congress could have expected defendants under §
922(g) . . . to know their own status[ ].” Rehaif, 139 S. Ct.
at 2197. If one were to conclude otherwise, the Court said,
“these provisions might apply to a person who was
convicted of a prior crime but sentenced only to probation,
who does not know that the crime is ‘punishable by
imprisonment for a term exceeding one year.’” Id. at 2198
(quoting 18 U.S.C. § 922(g)(1)).
Nasir, 2020 WL 7041357, at *20.
On the other side are the Fifth Circuit, Eighth Circuit, and possibly Sixth
Circuit. The Fifth Circuit held, in Staggers and United States v. Burden, 964
F.3d 339 (5th Cir. 2020), petition for cert. pending, No. 20-5939 (filed Sept.

9

There was other evidence which was arguably suggestive of
knowledge of illegal alien status, see supra p. 6 n.1, but that evidence was,
first, not pointed to by the lower court, see App. A003, and, second,
ambiguous, see App. A054-55 (opening brief argument that evidence could be
explained by other concerns). To the extent this other evidence might be
sufficient, that is a question that should be considered in the first instance by
the lower court. And it affects only the illegal alien in possession of a firearm
conviction, not the felon in possession of a firearm conviction.
28

30, 2020), and No. 20-5949 (filed Sept. 30, 2020), that “absent any evidence
suggesting ignorance, a jury applying the beyond-a-reasonable-doubt standard
could infer that a defendant knew that he or she was a convicted felon from the
mere existence of a felony conviction.” Staggers, 961 F.3d at 757; see also
Burden, 964 F.3d at 348 (quoting Staggers). The Eighth Circuit held, in
Owens and United States v. Gilmore, 968 F.3d 883 (8th Cir. 2020), that
“[r]ational jurors, using reason and common sense in light of their own
observations and experiences, could infer beyond a reasonable doubt that a
felony conviction would be a significant life event that a person would know
about when it happened and remember at a later date.” Owens, 966 F.3d at
709; see also Gilmore, 968 F.3d at 888 (citing Owens). The Sixth Circuit held,
in Ward, that a stipulation was enough, at least when accompanied by the
defense attorney’s statement in closing argument that “[the defendant is]
stipulating that he has a felony. So you can check that one off the box.” Id.,
957 F.3d at 696.
In between these cases and Nasir are the Second Circuit and Seventh
Circuit. The Second Circuit, in Miller, characterized the question as “a
difficult one” and “decline[d] to decide whether a properly-instructed jury
could have found that [the defendant] was aware of his membership in §
922(g)(1)’s class.” Id., 954 F.3d at 559. The Seventh Circuit, in Maez, also
declined to “go so far as to hold that [a] stipulation standing alone is sufficient
to infer, beyond a reasonable doubt, a defendant’s knowledge of his status,”
and found there was sufficient evidence only because there was additional
evidence. Id., 960 F.3d at 967.
It is important to resolve this split because the stipulation to status will
29

be the sole evidence in most pre-Rehaif felon in possession of a firearm cases.
Challenges will fail in those cases if the stipulation is enough. But the
challenges will not fail if the stipulation is not enough.

4.

This Case Is an Excellent Vehicle for Addressing the Questions

Presented.

This case is an excellent vehicle for addressing all of the questions
presented. To begin, the present case may be the only petition which directly
presents the question of whether a general motion for judgment of acquittal
preserves a sufficiency of evidence challenge. Most of the other petitions, if
not all of them, focus on whether, assuming plain error review, the reviewing
court can look to evidence outside the trial record. This petition squarely
presents the preliminary question of whether plain error review applies in the
first place.
This case is also an excellent vehicle for addressing the question of
whether it is permissible for a court to look outside the trial record if the plain
error standard does apply. The lower court clearly did that here, pointing to
the fact that Petitioner “received a 30-month sentence, according to the revised
presentence report.” App. A003 (emphasis added). This case also presents a
nuance contained within the question of whether it is permissible for a court to
look to evidence outside the trial record, namely, what the strength and quality
of that evidence must be. The Ninth Circuit has described the evidence which
must exist as “overwhelming and uncontroverted,” Johnson, 979 F.3d at 638,
and the Seventh Circuit has described it as “a narrow category of highly
30

reliable information,” Maez, 960 F.3d at 963. In most instances, that will be
evidence the defendant has actually served more than a year in prison. In
Petitioner’s case, there was uncontroverted evidence that there was a sentence
imposed of more than a year, but not uncontroverted evidence that he actually
served more than a year in prison, see App. A099 (reply brief argument
explaining presentence report made clear Petitioner did not serve the full 30
months in prison because he was sentenced on March 11, 2011 and
apprehended illegally in the country just a little more than a year later). It is
actually serving more than a year in prison that makes evidence of a prior
sentence “overwhelming and uncontroverted” or “highly reliable” evidence,
because it is what a defendant actually serves that he will indisputably
understand.
Finally, this case is an excellent vehicle for resolving the question of
whether a stipulation alone is sufficient evidence, because the stipulation is the
only evidence in the trial record to which the court below pointed. This is not
a case like Ward, where the court also pointed to the defense attorney’s closing
argument. See id., 967 F.3d at 696. It is not a case like Maez, where the court
also pointed to evasive behavior at the time of a search. See id., 960 F.3d at
967. It is not a case like Nasir, where the government, though not the court,
also pointed to furtive behavior and hiding the guns. See id., 2020 WL
7041357, at *21 & n.37.
In the present case, the stipulation is the only trial evidence to which the
lower court pointed. This squarely presents the question of whether a
stipulation alone can be sufficient evidence.

31

VI.
CONCLUSION

The Court should grant the Petition.

Respectfully submitted,

DATED: December 29 , 2020

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

32

APPENDIX 1

Case: 19-10252, 07/31/2020, ID: 11772755, DktEntry: 40-1, Page 1 of 5

NOT FOR PUBLICATION

FILED
JUL 31 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

19-10252

D.C. No.
4:14-cr-01568-CKJ-EJM-1

v.
JESUS EDER MORENO ORNELAS, AKA
Jesus Edgar Juanni Moreno, AKA Jesus
Eder Mendivel-Mendivel,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the District of Arizona
Cindy K. Jorgenson, District Judge, Presiding
Argued and Submitted July 13, 2020
San Francisco, California
Before: IKUTA and HURWITZ, Circuit Judges, and TAGLE,** District Judge.
Jesus Eder Moreno Ornelas (“Moreno”) appeals his convictions for
possession of a firearm by a felon, in violation of 18 U.S.C. §§ 922(g)(1) and
924(a)(2), and possession of a firearm by an illegal alien, in violation of

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Hilda G. Tagle, United States District Judge for the
Southern District of Texas, sitting by designation.
A001

Case: 19-10252, 07/31/2020, ID: 11772755, DktEntry: 40-1, Page 2 of 5

§§ 922(g)(5)(A) and 924(a)(2).1 He also appeals his sentence of 520 months of
imprisonment to be followed by five years of supervised release. We affirm.
1. Moreno challenges his felon-in-possession and illegal-alien-in-possession
convictions in light of Rehaif v. United States, 139 S. Ct. 2191 (2019), which held
that in a prosecution under 18 U.S.C. §§ 922(g) and 924(a)(2), “the Government
must prove both that the defendant knew he possessed a firearm and that he knew
he belonged to the relevant category of persons barred from possessing a firearm.”
Id. at 2200.
Because Moreno did not raise a Rehaif challenge when moving for acquittal
in the district court, we apply plain error review to his sufficiency-of-the-evidence
claim. United States v. Benamor, 937 F.3d 1182, 1188 (9th Cir. 2019). A claim of
defective indictment raised for the first time on appeal is also reviewed for plain
error. United States v. Leos-Maldonado, 302 F.3d 1061, 1064 (9th Cir. 2002).
Under the plain error standard, relief is not warranted unless there has been (1)
error, (2) that is plain, (3) affects substantial rights, and (4) seriously affects the
fairness, integrity, or public reputation of the judicial proceedings. Id. (citing
United States v. Olano, 507 U.S. 725, 731 (1993)).
It is undisputed that the indictment did not charge the requisite knowledge of

1

We previously vacated Moreno’s convictions for two counts of attempted
robbery. United States v. Ornelas, 906 F.3d 1138 (9th Cir. 2018).
2

A002

Case: 19-10252, 07/31/2020, ID: 11772755, DktEntry: 40-1, Page 3 of 5

status, and that the district court erred by not requiring the government to prove
Moreno’s knowledge of his statuses as a convicted felon and an unlawful alien. See
United States v. Luong, --- F.3d ---, 2020 WL 4033847, at *11 (9th Cir. July 17,
2020); United States v. Johnson, 963 F.3d 847, 850 (9th Cir. 2020). However,
Moreno cannot satisfy the third and fourth prongs of the plain error test. He
stipulated to a prior felony conviction, for which he received a 30-month sentence,
according to the revised presentence report. See Johnson, 963 F.3d at 854
(concluding that uncontroverted evidence that defendant was sentenced to more
than a year in prison “will ordinarily preclude” satisfaction of the fourth prong).
Moreno also stipulated that he was not a U.S. citizen and was in the country
without the Attorney General’s consent. There is no reasonable probability that,
but for the omission in the indictment, the jury would have reached a different
verdict on the possession charges. For this reason, the error did not affect Moreno’s
substantial rights, nor the fairness, integrity, or public reputation of the trial. See
Luong, 2020 WL 4033847, at *12. And for the same reason, the district court did
not plainly err in determining the evidence was sufficient to support Moreno’s
convictions.2

2

We would reject Moreno’s Rehaif challenge to the sufficiency of the evidence
even if it were preserved before the district court. Considering the “evidence
presented at trial in the light most favorable to the prosecution,” a “rational trier of
fact” could find that Moreno knew of his prohibited status beyond a reasonable

3

A003

Case: 19-10252, 07/31/2020, ID: 11772755, DktEntry: 40-1, Page 4 of 5

2. Moreno challenges his sentence on two grounds, which we address in
turn. We first reject his argument that Nelson v. Colorado, 137 S. Ct. 1249 (2017),
overruled United States v. Watts, 519 U.S. 148 (1997) (per curiam). Nelson held
that if a person is not convicted of an offense, the consequences specific to a
conviction of that offense cannot be imposed. 137 S. Ct. at 1257–58. This does not
contradict Watts’s holding that if a defendant is convicted of an offense, the district
court can consider all relevant conduct at sentencing. 519 U.S. at 153–54.
Accordingly, the district court did not err in considering conduct underlying the
attempted murder charge that did not result in a conviction.
We also reject Moreno’s argument that the sentencing judge erred in
interpreting and applying the attempted first-degree murder guideline, U.S.S.G.
§ 2A2.1(a)(1). We review a court’s interpretation of the guidelines de novo;
application of the Guidelines to the facts of a given case for abuse of discretion;
and factual findings for clear error. United States v. Gasca-Ruiz, 852 F.3d 1167,
1174–75 (9th Cir. 2017) (en banc).
The district court correctly interpreted the attempted first-degree murder
guideline by distinguishing the requisite elements of “intent to kill” and
“premeditation.” Further, the district court did not abuse its discretion in applying

doubt. United States v. Nevils, 598 F.3d 1158, 1163 (9th Cir. 2010) (citing Jackson
v. Virginia, 443 U.S. 307, 319 (1979)).
4

A004

Case: 19-10252, 07/31/2020, ID: 11772755, DktEntry: 40-1, Page 5 of 5

the attempted first-degree murder guideline. Sufficient evidence supports the
finding that Moreno contemplated the attempted killing, given Moreno’s conduct
leading up to the physical altercation (including his initial refusal to comply with
the officer’s orders); the length of the altercation; Moreno’s dominant position
during the altercation; the timing and the number of shots fired; the officer yelling
“no, no” when the second and third shots were fired towards him; and Moreno’s
statements suggesting that he was thinking about the consequences of his action.
AFFIRMED.

5

A005

APPENDIX 2

Case: 19-10252, 08/28/2020, ID: 11805956, DktEntry: 42, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 28 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JESUS EDER MORENO ORNELAS, AKA
Jesus Edgar Juanni Moreno, AKA Jesus
Eder Mendivel-Mendivel,

No.

19-10252

D.C. No.
4:14-cr-01568-CKJ-EJM-1
District of Arizona,
Tucson
ORDER

Defendant-Appellant.
Before: IKUTA and HURWITZ, Circuit Judges, and TAGLE,* District Judge.
The panel has unanimously voted to deny the petition for panel rehearing.
Judge Ikuta and Judge Hurwitz voted to deny the petition for rehearing en banc,
and Judge Tagle has so recommended.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App. P.
35.
The petition for panel rehearing and the petition for rehearing en banc are
DENIED.

*

The Honorable Hilda G. Tagle, United States District Judge for the
Southern District of Texas, sitting by designation.
A006

APPENDIX 3

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF ARIZONA

3
4
5
6
7

United States of America,

)
)
Plaintiff,
)
)
vs.
)
)
Jesus Eder Moreno Ornelas,
)
)
Defendant.
)
_______________________________ )

CR-14-1568-TUC-CKJ(EJM)
Tucson, Arizona
October 19, 2015
10:30 a.m.

8
9

REPORTER'S TRANSCRIPT OF PROCEEDINGS

10

SENTENCING HEARING

11

BEFORE:

THE HONORABLE CINDY K. JORGENSON, DISTRICT JUDGE

12
13

APPEARANCES

14

For the Government:
U.S. Attorney's Office
By: ANGELA W. WOOLRIDGE, ESQ.
CARIN C. DURYEE, ESQ.
405 West Congress Street, Suite 4800
Tucson, Arizona 85701-4050

15
16
17
18
19
20

For the Defendant:
U.S. Federal Public Defender's Office
By: JAY AARON MARBLE, ESQ.
VICTORIA A. BRAMBL, ESQ.
407 West Congress Street, Suite 501
Tucson, Arizona 85701-1310

21
22
23
24
25

Cheryl L. Cummings, RDR-CRR-RMR
Official Court Reporter
Evo A. DeConcini U.S. Courthouse
405 West Congress, Suite 1500
Tucson, Arizona 85701
(520)205-4290
Proceedings Reported by Stenographic Court Reporter
Transcript Prepared by Computer-Aided Transcription
A007

28

1

to consider that and reject the arguments that he made

2

inappropriate gestures at trial.

3

And finally, just again, it's not appropriate

4

procedure to consider documents now that the Government had

5

the burden of producing prior to this hearing, and that's in

6

reference to the judicially noticeable documents.

7

appropriate.

8

even consider that argument.

9

That's not the procedure.

That's not

The Court should not

And just to finalize, again this was a case of

10

aggravated assault, not of attempted first degree or second

11

degree murder.

12

what Mr. Moreno Ornelas should be sentenced under because

13

that's the level -- seriousness of this case, including the

14

weapon was for that conduct, your Honor.

The appropriate guideline is 2A2.2.

15

THE COURT:

All right.

16

All right.

This is the Court's guideline

That's

Thank you, Mr. Marble.

17

calculations.

18

the extraordinary efforts of the probation department in

19

calculating the guidelines or giving the Court some guidance

20

in this.

21

guideline calculations.

22

where we are calculating the guidelines.

23

I appreciate the briefing from both sides and

This is an unusual case in this District as far as
It's not our normal type of case

In my discretion, obviously I sat through the trial,

24

I heard the evidence.

Relevant conduct is something the Court

25

can consider in calculating the guidelines.

The guidelines

A008

29

1

clearly call for that.

2

deadlocked on the attempted murder charge.

3

review of the evidence, the Court finds that there is clear

4

and convincing evidence of that, his relevant conduct.

5

The Court is aware that the jury
However, in my

So the Court finds that the appropriate guideline is

6

2A2.1, assault with intent to commit murder and attempted

7

murder which has a base offense level of either 33 or 27.

8

reviewing the evidence, I agree with the Government.

9

think 33 is the more appropriate number because if the object

I

10

of the offense would have constituted first degree murder,

11

then the base offense level is 33.

12

by the evidence here.

13

In

I think that's supported

Obviously, the jury didn't hear -- wasn't aware of

14

everything this Court was aware of.

The defendant's

15

statement, I excised a lot of that for the jury because I

16

thought it was very inflammatory; however, that's not the

17

primary thing the Court is relying on but that's something

18

that the jury didn't hear.

19

indicates to the Court that, although he did say -- he was

20

bragging he could have killed Officer Linde if he had chosen

21

to and he chose not to, the statement clearly shows the Court

22

that he has the capability and ability and perhaps maybe has

23

killed other people for various reasons as outlined in the

24

statement.

25

Court reviewed that the jury didn't have an opportunity to

The defendant's statement

So that's just one piece of evidence that this

A009

30

1
2

review.
This is not a type of case where the defendant was

3

impaired or intoxicated and could argue there was some heat of

4

passion here.

5

struggling for his life here.

6

reflection from the very start of the incident, his first

7

encounter with Agent Linde as he's walking down the road, he

8

had time to reflect and decide how he was going to interact

9

with Agent Linde.

There was a struggle.

Officer Linde was

But this defendant had time and

And the trial, I'm not going to go through

10

all the evidence, but clearly you can just see the progression

11

of his conduct.

12

And the evidence shows that Officer Linde was on the

13

ground, and the defendant took the gun out of the holster and

14

then started to fire it at the agent.

15

That's intentional conduct.

16

Things that -- considering what he didn't do, he didn't grab

17

the gun and run away or grab the gun and throw it away, but he

18

grabbed the gun and started firing at Agent Linde.

19

not going to go through all the details, but that shows me

20

that this was a premeditated attempt to kill Officer Linde.

21

So that would make it a base offense level of 33 instead of 27

22

which is proposed by the probation office.

23
24
25

That is premeditation.

He could have done other things.

And I'm

We have no dispute as to the plus 6 which is
3A1.2(c)(1).
As to the obstruction of justice, the Court finds

A010

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF ARIZONA

3
4
5
6
7

United States of America,

)
)
Plaintiff,
)
) CR-14-1568-CKJ(EJM)
vs.
)
) Tucson, Arizona
Jesus Eder Moreno Ornelas,
) July 16, 2019
)
Defendant.
)
__________________________________ )

8
9

REPORTER'S TRANSCRIPT OF PROCEEDINGS

10

RESENTENCING HEARING

11

BEFORE: THE HONORABLE CINDY K. JORGENSON
UNITED STATES SENIOR DISTRICT JUDGE

12
13
APPEARANCES
14
15
16

For the Government:
U.S. Attorney's Office
By: ANGELA W. WOOLRIDGE, ESQ.
405 West Congress Street, Suite 4800
Tucson, Arizona 85701

17
18
19

For the Defendant:
Conover Law, PLLC
By: LAURA CONOVER, ESQ.
222 North Court Avenue
Tucson, Arizona 85701

20
21
22
23
24
25

Cheryl L. Cummings, RDR-CRR-RMR
Official Court Reporter
Evo A. DeConcini U.S. Courthouse
405 West Congress, Suite 1500
Tucson, Arizona 85701
(520)205-4290
Proceedings Reported by Stenographic Court Reporter
Transcript Prepared by Computer-Aided Transcription
A011

78

1

his protection.

2

concerned about his safety.

3

trying to kill someone else.

4

These are not actions of a man that is
These are actions of a man who is

And to say that there's not premeditation, he, by

5

his own words, said he took the gun from the officer and fired

6

four shots.

7

clear and convincing evidence.

8

since years -- a couple of years ago before the appeal we were

9

in front of this Court and the Court found such clear and

Your Honor, I don't know how it could be any more
That has not changed one bit

10

convincing evidence.

And I would urge the Court to adopt

11

those -- that base offense level.

12

THE COURT:

All right.

Thank you.

13

So the Court does adopt the base offense level of 33

14

as proposed in the presentence report.

15

previous analysis that I conducted, after hearing from

16

counsel, last time when I sentenced this defendant.

17

there is clear and convincing evidence that this defendant was

18

attempting to commit the crime of murder based on -- and I do

19

find the testimony of Officer Linde to be credible, truthful,

20

reliable.

21

on a couple of occasions during this incident, but he has very

22

clear memory of what happened when he was conscious and

23

fighting for his life.

24
25

I'm adopting my

I think

He affirmatively told the jury that he did pass out

It's very clear that he is an eyewitness to this
incident.

He saw what this defendant was attempting to do,

A012

79

1

which was to shoot him.

2

the transcript.

3

off of my chest area up into the air.

4

He was able -- I'm just looking at

He says, I was able to push the gun up and

He was trying to push it back down into my chest

5

area but he wasn't able to do it.

6

and I was able to keep it up.

I gained my strength back

7

That's just part of the transcript.

8

So it's clear to me that Officer Linde has a good

9
10

memory as an eyewitness of what was being done to him for most
of this encounter.

11

And the Court finds that Mr. Barkman's opinions are

12

not based on a sound review of all of the evidence and the

13

testimony.

14

holding his gun while he was attempting to handcuff the

15

defendant.

16

several of his opinions are not based on the actual evidence

17

presented, and his opinions are finding that this defendant is

18

more credible than the officer in describing the incident.

19

For example, he opines that Officer Linde was

I'm just not sure where that comes from.

I think

First of all, we don't have a very detailed

20

description from the defendant in police reports about what

21

actually happened.

22

account.

23

would need to find that this agent was not credible, and the

24

Court finds that the agent was credible.

25

Officer Linde gives a more detailed

And believing the defendant means that the Court

So in looking at the credibility, the Court finds

A013

80

1

that when Mr. Barkman chooses to rely on the defendant's

2

versions of events which several times he talks about feeling

3

that that version is a more reliable summary of what happened,

4

that's just an example where this Court finds that his

5

opinions are not based on an accurate analysis of the nature

6

of the case.

7

And I'm just concerned that any tests that he did

8

don't appear to me to be tests that are really probative in

9

this particular case because I think the most important

10

evidence in this case is not so much any forensic testing that

11

could be done, which even Mr. Barkman admits there's not too

12

much that he can do, but is the eyewitness account of what

13

happened.

14

And Officer Linde has been consistent.

I think he's

15

very believable.

16

finding that this defendant was attempting to kill him with

17

that firearm.

18

And I think his testimony supports the

So I'm going to overrule the objection and find that

19

the base offense level is properly a 33 as outlined in

20

paragraph 19 of the presentence report.

21

And then we have the plus six under 3A1.2(c)(1)

22

because this assault occurred with the defendant knowing that

23

he was assaulting a law enforcement officer as outlined in

24

paragraph 20.

25

The adjustment for obstruction of justice, I'm going

A014

AP P ENDI X4

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF ARIZONA

3
4
5
6
7

United States of America,

)
)
Plaintiff,
)
)
vs.
)
)
Jesus Eder Moreno Ornelas,
)
)
Defendant.
)
_______________________________ )

CR-14-1568-TUC-CKJ(EJM)
Tucson, Arizona
June 30, 2015
9:41 a.m.

8
9

REPORTER'S TRANSCRIPT OF PROCEEDINGS

10

JURY TRIAL DAY FIVE

11

BEFORE:

THE HONORABLE CINDY K. JORGENSON, DISTRICT JUDGE

12
13

APPEARANCES

14

For the Government:
U.S. Attorney's Office
By: ANGELA W. WOOLRIDGE, ESQ.
CARIN C. DURYEE, ESQ.
405 West Congress Street, Suite 4800
Tucson, Arizona 85701-4050

15
16
17
18
19
20

For the Defendant:
U.S. Federal Public Defender's Office
By: JAY AARON MARBLE, ESQ.
VICTORIA A. BRAMBL, ESQ.
407 West Congress Street, Suite 501
Tucson, Arizona 85701-1310

21
22
23
24
25

Cheryl L. Cummings, RDR-CRR-RMR
Official Court Reporter
Evo A. DeConcini U.S. Courthouse
405 West Congress, Suite 1500
Tucson, Arizona 85701
(520)205-4290
Proceedings Reported by Stenographic Court Reporter
Transcript Prepared by Computer-Aided Transcription
A015

56

1
2
3
4

1:30.

Thank you.

(The jury was excused from the courtroom at 11:40 a.m.)
THE COURT:

So the jury is gone.

So Mr. Marble, did

you want to make your Rule 29 motion?

5

MR. MARBLE:

6

THE COURT:

7

MR. MARBLE:

Yes, your Honor.
Go ahead.
Your Honor, under Rule 29 judgment of

8

acquittal, I move for judgment of acquittal on each and every

9

count because the Government has failed to carry it's burden

10

of proving each and every element of those counts.

11

very specific -- there's a couple of very specific arguments

12

I'd like to make to the Court.

13

There's

The first one regards what would be Count One and

14

Count Two which, in essence, can relate to Count Three.

15

argument is the Government must prove beyond a reasonable

16

doubt that Agent Linde was acting within his official duties.

17

And the case law I submitted to the Court for the proposed

18

instructions is insightful, the supplemental case authority.

19

From the Ninth Circuit, the cases I submitted are important

20

because in each instance the person is acting under a very

21

specific authority that they're granted by statute or by law.

22

And then the question becomes whether or not that person was

23

in the scope of what they're employed to do.

24

kind of a two-part -- it's really a two-part test.

25

The

So really it's

In my supplemental jury instructions, I think I

A016

57

1

tried to explain that because it is important.

Especially I

2

think the Juvenile Female case from 2009 clearly shows the

3

analysis because the first analysis was whether or not Border

4

Patrol had the right to stop this vehicle and search for

5

drugs.

6

This is the Forest Service law enforcement agent.

7

Forest Service land.

8

make an immigration arrest.

9

Border Patrol.

So in this case, the facts that we have are this:
He's not on

He's not authorized under Title 8 to
He's not cross-certified with

He's not cross-certified with Cochise County

10

because his cross-designation -- I'm sorry, cross-designation

11

had lapsed.

12

So there must be some authority for this agent to be

13

able to act in order for this case to go to the jury, and I

14

think that there hasn't been evidence presented that the jury

15

could reasonably conclude that this agent was acting within

16

what his authority was.

17

Border Patrol or being on Forest Service land or maybe even if

18

the Cochise County cross-designation hadn't lapsed, there

19

needs to be some sort of authority for him to act in an area

20

that he's not trained or an area that he's not authorized by

21

law or statute to enact.

22

was suspected illegal aliens as the reason why he responded,

23

so I don't think there's a plausible way for that authority to

24

be authorized.

25

Absent the cross-designation from

I think the evidence said that this

The evidence that we did have would be -- the

A017

58

1

evidence that we did have was a Memorandum of Understanding

2

that essentially gave broader power to Border Patrol acting on

3

Forest Service land.

4

Trident program, that, again, doesn't provide authorization

5

for immigration.

6

both -- it's an element for Counts One and Two that's

7

required.

8
9

That doesn't authorize the actions.

So for that reason, for Counts One and Two

And Count Three, of course, requires a guilty
verdict of either One or Two in order to be the use of the

10

firearm in relation to the crime of violence.

11

three counts, I don't think -- I think that a judgment of

12

acquittal would be appropriate.

13

So for those

The final count is the attempted robbery of the

14

vehicle, your Honor.

15

instructions for attempted robbery, and there's not a model

16

instruction.

17

robbery of a vehicle is this:

18

forgot to compare this, but I think we each agree the item

19

must be taken by force, intimidation, or threats.

20

be not be the exact language, but that's the essence of

21

there -- that's an element that has to be shown.

22

A

I know we haven't settled the

But I think what's important about the attempted
Even the -- I think all -- I

That might

I don't think there's been any testimony that

23

Mr. Moreno Ornelas went to the vehicle, using the weapon to

24

gain control of the vehicle, throwing the agent out.

25

he just went to the vehicle.

It was

Essentially, that's not

A018

59

1

attempted robbery because there was no use of force or threats

2

to obtain possession of that vehicle.

3

over to it and got inside.

4

is what we heard.

5

element has established for the jury to conclude that by

6

struggling with the officer -- clearly the attempted robbery

7

of the weapon would be a question for the jury, but not the

8

vehicle.

9
10

He just simply walked

The door was still open I believe

So I don't think under any theory that

So I submit that those very specific arguments in
addition to my general judgment for acquittal, your Honor.

11

THE COURT:

Thank you, Mr. Marble.

12

Government response.

13

MS. WOOLRIDGE:

14

With regard to the counts that weren't mentioned,

Thank you, your Honor.

Briefly.

15

and I won't go into detail, the illegal reentry and unlawful

16

possession of firearm charges, I would also point to the

17

stipulation that's been entered into by both parties and

18

entered and admitted into evidence that establishes many of

19

the elements of these offenses.

20

But going specifically to the counts that the

21

defendant has argued, with regard to Counts One, Two and Three

22

and the argument of official duties, first of all I think it's

23

important to point out that the official duty element requires

24

that some -- that the officer is assaulted or attempted to be

25

murdered while engaged in or on behalf of his official duties.

A019

60

1

The case law that has been submitted by the defendant,

2

although perhaps in some of these cases the victim in that

3

case was acting on authority granted to them by statute, those

4

cases don't stand for the conclusion that that authority

5

granted by statute is necessary.

6

in one case doesn't result in that being required for every

7

case.

8
9

Just because a fact exists

And every case is analyzed open a case-by-case basis.
And what is required and what's clear by Ninth

Circuit law is that official duties is what an officer is

10

employed to do as opposed to on a personal frolic.

11

evidence is very clear.

12

frolic.

13

that this occurred.

14

that time.

15

within the scope of his duties to another.

16

off duty at the time.

17

he hadn't already clocked off for the day.

18

and he was doing things that he was not only required to do

19

but approved to do.

20

At the very most with regard to immigration, he made a

21

detention for another agency that is the Border Patrol.

22

Here the

Officer Linde was not on a personal

He was on duty that day.

He was on duty at the time

He was getting paid for being on duty at

He was going from one area that he was acting
He was not at all

He wasn't eating lunch.

He wasn't --

He was being paid

He did not make an immigration arrest.

There are grounds for finding that he was engaged in

23

his official duties on a number of respects.

First of all,

24

it's the concept of nexus with the United States Forest

25

Service land.

The incident itself happened just outside of

A020

61

1

Forest Service land, but the first report of these individuals

2

was while the individuals -- the defendant and the material

3

witness -- were on Forest Service land.

4

that and reported that to Mr. Canez, that occurred on Forest

5

Service land.

6

The couple that saw

Then the second report from Mr. Soto, they were seen

7

on Fish and Wildlife land.

That's also federal land and

8

that's another agency that Officer Linde is cross-designated

9

to enforce on.

The road where they were ultimately found is

10

the main road in and out of the Coronado Forest, so the main

11

road in and out of Forest Service land and is accessed on a

12

regular basis as the main access point to that land and often

13

transversed during the course of an officer's duty when

14

working in that area.

15

Officer Linde has Title 21 authority.

Therefore, if

16

there's just even suspicion of drug trafficking activity, it

17

doesn't have to be proven -- this concept that an offense need

18

to be proven before an officer can investigate it is really

19

nonsensical.

20

or disprove suspicion of an activity.

21

suspicion of drug trafficking activity as confirmed by the

22

material witness statements that had in fact been what was

23

going on.

24
25

Obviously, that's why they investigate; to prove
And there certainly was

The officer is required by statute, Title 16,
Section 55 -- sorry, 559c and d, admitted as exhibits 96 and

A021

62

1

97, he's required by statute to assist other agencies, and

2

that's exactly what he was doing in this case by assisting

3

Border Patrol.

4

notice of these two exhibits, these two statutory exhibits.

5

And we would ask that the Court take judicial

THE COURT:

Let me ask, I'm just curious, is it

6

trespassing on Forest Service land for an undocumented person

7

to be there?

8

regulations, or is that just a violation of Title 8, if you

9

know?

10
11

Is that a violation of Forest Service

MS. WOOLRIDGE:

I'll be

honest, I am not prepared to answer that question.

12

THE COURT:

13

MS. WOOLRIDGE:

14

THE COURT:

15

I don't know, your Honor.

Okay.

So 96 and 97 were admitted.

That's correct.

Those statutes have been admitted.

But

the MOU was not?

16

MS. WOOLRIDGE:

17

THE COURT:

18

MS. WOOLRIDGE:

No, your Honor.

Okay.

So go ahead.

We also heard the testimony of

19

Captain Cheri Bowen who is the officer's supervisor and who

20

testified that what he was doing is exactly what she would

21

expect and require of her employees.

22

jury instruction, what an officer was employed to do, he was

23

doing exactly what he was employed to do that day and was

24

certainly not engaged in any sort of personal frolic.

25

think the official duty aspect, that he was engaged in

So when we look at the

So I

A022

63

1

official duties, certainly has been proven beyond any

2

reasonable doubt.

3

Also, your Honor, he was assaulted and attempted to

4

be murdered by the defendant on account of his official

5

duties.

6

enforcement officer.

7

but knew that he was a law enforcement officer trying to make

8

a stop of him.

9

own words, he didn't want to get caught.

The defendant knew that Officer Linde was a law
He may not have known the exact agency,

And that is why he did that.

The defendant's

Well, he wasn't

10

worried about getting caught by a civilian.

11

about getting caught by an off-duty officer.

12

about getting caught from an on-duty law enforcement agency

13

and facing the consequences for his criminal activity.

14

exactly why the defendant did what he was doing -- did what he

15

did to get away.

16

in this case, while engaged and on account of, prongs of the

17

official duty element.

18

He wasn't worried
He was worried

That's

So we have satisfied both prongs as charged

With regard to robbery of a vehicle, your Honor, and

19

I'm not -- I believe that it's Count Four of the Indictment,

20

there was force used that was necessary for the defendant to

21

attempt to take the vehicle.

22

against the officer, he would have been handcuffed at the

23

time.

24

would not have been able to get in that vehicle.

25

through the defendant's use of force against the officer that

Had the defendant not used force

He would not have been able to access that vehicle.

He

So it was

A023

64

1

he was able to attempt to take that vehicle.

2

was necessary.

3

vehicle had he not used an extreme amount of force against the

4

officer.

5

able to just take his weapon away from him, all that force

6

used was essential to allow him to then attempt to get into

7

that vehicle.

8

considering taking that vehicle to Mexico.

9

that force was an essential part of that chain of events that

10

And that force

He never would have been able to get in that

Knocking him on the ground, almost knocking him out,

And by his own words he wanted and was
So your Honor,

allowed him to, again, attempt to take the vehicle.

11

THE COURT:

All right.

Thank you.

I'm going to

12

deny the Rule 29 motion for judgment of acquittal on the

13

counts that Mr. Marble is asking for.

14

for all counts, Mr. Marble, just the particular ones.

15

there is sufficient evidence of the various elements of each

16

of these crimes for the jury -- the Government has presented

17

sufficient evidence for the jury to make the decision.

18

that motion is denied.

I don't think it was

19

And let's just start -- go ahead, Mr. Marble.

20

MR. MARBLE:

Sorry.

One other -- I'm sorry.

21

apologize.

22

stipulating to 318, 319.

23

had a ruling whether or not we were going to admit the

24

statutes.

25

statutes, and actually I need to.

I think

So

I

On our stipulation of -- I knew we were
I made a mistake.

We never really

And I'm sorry, I think Exhibit 96 and 97 are the

A024

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF ARIZONA

3
4
5
6
7

United States of America,

)
)
Plaintiff,
)
)
vs.
)
)
Jesus Eder Moreno Ornelas,
)
)
Defendant.
)
_______________________________ )

CR-14-1568-TUC-CKJ(EKM)
Tucson, Arizona
July 1, 2015
11:05 a.m.

8
9

REPORTER'S TRANSCRIPT OF PROCEEDINGS

10

JURY TRIAL DAY SIX

11

BEFORE:

THE HONORABLE CINDY K. JORGENSON, DISTRICT JUDGE

12
13

APPEARANCES

14

For the Government:
U.S. Attorney's Office
By: ANGELA W. WOOLRIDGE, ESQ.
CARIN C. DURYEE, ESQ.
405 West Congress Street, Suite 4800
Tucson, Arizona 85701-4050

15
16
17
18
19
20

For the Defendant:
U.S. Federal Public Defender's Office
By: JAY AARON MARBLE, ESQ.
VICTORIA A. BRAMBL, ESQ.
407 West Congress Street, Suite 501
Tucson, Arizona 85701-1310

21
22
23
24
25

Cheryl L. Cummings, RDR-CRR-RMR
Official Court Reporter
Evo A. DeConcini U.S. Courthouse
405 West Congress, Suite 1500
Tucson, Arizona 85701
(520)205-4290
Proceedings Reported by Stenographic Court Reporter
Transcript Prepared by Computer-Aided Transcription
A025

6

1

may not consider his assistance to Border Patrol as a basis to

2

find that he was acting within the scope of his official

3

duties.

4
5

THE COURT:

So let's see, Mr. Marble,

anything else?

6

MR. MARBLE:

7

THE COURT:

8

MR. MARBLE:

9

All right.

Two other.

Yes, your Honor.

Go ahead.
Quickly.

Just to make sure, I know

that my Rule 29 was denied at the close of the Government's

10

evidence.

I know the law requires at the close of all

11

evidence, just to make certain that since we rested without

12

evidence, I just wanted to make sure that the record -- if I

13

can just --

14

THE COURT:

15

MR. MARBLE:

Renew that?
-- without arguing, request my Rule 29

16

again without argument at the close of evidence just to make

17

sure that it's not omitted.

18

THE COURT:

Not waived.

Yes, certainly.

The record

19

may reflect that Mr. Marble has renewed his Rule 29 motion

20

after the close of evidence, and the Court will deny that

21

motion.

22

MR. MARBLE:

And the final point, your Honor, is I

23

failed to object in a timely manner during the Government's

24

second closing.

25

that was -- I'll paraphrase.

I believe that they misstated the law, and
When talking about the official

A026

AP P ENDI X5

1

2
3
4

5

6
7

JOHNS. LEONARDO
United States Attorney
District of Arizona
CARIN C. DURYEE
carin.duryee@,usdoj .gov
ANGELA W":"'WOOLRIDGE
AZ State Bar No. 022079
angela.woolridge@usdoj .gov
Assistant U.S. Attorneys
United States Courthouse
405 W . Congress Street, Suite 4800
Tucson, Arizona 85701
.
Telephone: 520-620-7300
Attorneys for Plaintiff

8

IN THE UNITED STATES DISTRICT COURT

9

FOR THE DISTRICT OF ARIZONA

10
11

UNITED STATES OF AMERICA,
Plaintiff,

12

CR 14-1568-TUC-CKJ (EJM)
STIPULATIONS OF FACT

vs.

13
14
15

JESUSEDERJUANNIMORENO
ORNELAS, also known as JESUS EDER
MENDIVEL-MENDIVEL,

16
Defendant.
17
18
19
20
21

22

It is hereby STIPULATED by the defendant Jesus Eder Juanni Moreno-Ornelas
and the United States that the following facts and elements are uncontested in the abovecaptioned case, and shall be considered by the Court to have been proven, beyond a
reasonable doubt, within the trial of this case:

23
24
25

1.

The defendant, Jesus Eder Juanni Moreno-Ornelas, was born in Mexico, and is

not, nor has he ever been, a national or naturalized citizen of the United States.

26
27
28

2.

The defendant, Jesus Eder Juanni Moreno-Ornelas, was deported and removed

from the United States on May 18, 2014.

EXHIBIT

92

A027

~R-14-01568-TUC-CKJ

1

3.

The defendant, Jesus Eder Juanni Moreno-Ornelas, admits that he has not at any

2

time obtained the consent of the Attorney General or the Secretary of the Department of

3

Homeland Security to reapply for admission to the United States.

4

5

4.

6

present in the United States on August 23, 2014.

The defendant, Jesus Eder Juanni Moreno-Ornelas, was illegally or unlawfully

7

On March 11 , 2011 , the defendant, Jesus Eder Juanni Moreno-Ornelas, had been

8

5.

9

previously convicted of a crime punishable by imprisonment for a term exceeding one

10

year.

11
12

The content of this stipulation is true and correct. Further, it has been explained to

13

the defendant, and he is in agreement with its content. These facts and elements shall be

14

considered uncontested and proven by the government, beyond any reasonable doubt.

15

/46ie /'lo

16
17
18

·rr-~rvJ Id~)./1}/ v1rt t?t%1-elas
Jesus Eder Juanni Moreno-Ornelas
Defendant

rble, Esq.
ey for Defendant

19

20

i

0~

~

Respectfully submitted this 1~ay of ~ L ) ~

, 2015.

21
22
23
24

JOHN S. LEONARDO
United States Attorney

25

D~

26
27

Date

CARIN C. DURYEE
ANGELA W. WOOLRIDGE
Assistant U.S. Attorneys

28
-2-

A028

1

IN THE UNITED STATES DISTRICT COURT

2

FOR THE DISTRICT OF ARIZONA

3
4
5
6
7

United States of America,

)
)
Plaintiff,
)
)
vs.
)
)
Jesus Eder Moreno Ornelas,
)
)
Defendant.
)
_______________________________ )

CR-14-1568-TUC-CKJ(EJM)
Tucson, Arizona
June 22, 2015
9:02 a.m.

8
9

REPORTER'S TRANSCRIPT OF PROCEEDINGS

10

JURY TRIAL DAY ONE

11

BEFORE:

THE HONORABLE CINDY K. JORGENSON, DISTRICT JUDGE

12
13

APPEARANCES

14

For the Government:
U.S. Attorney's Office
By: ANGELA W. WOOLRIDGE, ESQ.
CARIN C. DURYEE, ESQ.
405 West Congress Street, Suite 4800
Tucson, Arizona 85701-4050

15
16
17
18
19
20

For the Defendant:
U.S. Federal Public Defender's Office
By: JAY AARON MARBLE, ESQ.
VICTORIA A. BRAMBL, ESQ.
407 West Congress Street, Suite 501
Tucson, Arizona 85701-1310

21
22
23
24
25

Cheryl L. Cummings, RDR-CRR-RMR
Official Court Reporter
Evo A. DeConcini U.S. Courthouse
405 West Congress, Suite 1500
Tucson, Arizona 85701
(520)205-4290
Proceedings Reported by Stenographic Court Reporter
Transcript Prepared by Computer-Aided Transcription
A029

152

1

that his intention was never to kill Agent Linde.

2

THE COURT:

3

Do counsel want to read the stipulation of facts to

4

the jury at this point or later in the case?

5
6

Thank you, Mr. Marble.

MS. WOOLRIDGE:

Your Honor, it may be best to do it

now.

7

THE COURT:

All right.

And did you want the

8

stipulation marked as an exhibit or actually go back to the

9

jury?

10
11

MS. WOOLRIDGE:

THE COURT:

13

MS. WOOLRIDGE:

Exhibit 92.
And if I may approach the clerk, I

have --

15

THE COURT:

16

you can read that to the jury.

17

We can mark that

as Exhibit - I believe it will be 92.

12

14

Sure, your Honor.

Sure.

So I will return that to you and

And members of the jury, a stipulation is an

18

agreement between both sides that certain facts do exist so

19

you can consider these facts as true.

20

to read the stipulation which has been signed by the

21

defendant, his attorney, and Government's attorney.

22

will also be a hard copy, an exhibit, for you when you start

23

your deliberation.

Ms. Woolridge is going

And there

24

So Ms. Woolridge, you may read the stipulation.

25

MS. WOOLRIDGE:

Thank you, your Honor.

A030

153

Ladies and gentlemen of the jury, it is hereby

1
2

stipulated by the defendant, Jesus Eder Juanni Moreno Ornelas,

3

and the United States that the following facts and elements

4

are uncontested in this case and shall be considered to have

5

been proven beyond a reasonable doubt within the trial of this

6

case:

7

First, the defendant, Jesus Eder Juanni Moreno

8

Ornelas was born in Mexico and is not, nor has he ever been, a

9

national or nationalized citizen of the United States.

10

Two.

The defendant, Jesus Eder Juanni Moreno

11

Ornelas, was deported and removed from the United States on

12

May 18th, 2014.

13

Three.

The defendant, Jesus Eder Juanni Moreno

14

Ornelas, admits that he has not at any time obtained the

15

consent of the Attorney General or the Secretary of the

16

Department of Homeland Security to reapply for admission to

17

the United States.

18

Four.

The defendant Jesus Eder Juanni Moreno

19

Ornelas was illegally or unlawfully present in the United

20

States on August 23rd 2014.

21

Fifth.

On March 11th, 2011, the defendant, Jesus

22

Eder Juanni Moreno Ornelas, had been previously convicted of a

23

crime punishable by imprisonment for a term exceeding one

24

year.

25

The parties agree that the content of the

A031

154

1

stipulation is true and accurate and that these facts and

2

elements shall be considered uncontested and proven by the

3

Government beyond any reasonable doubt.

4
5
6

THE COURT:

Thank you.

Thank you.

And Exhibit 92 is admitted

into evidence.
(Exhibit 92 entered into evidence.)

7

And the Government may call its first witness.

8

MS. DURYEE:

9

Your Honor, may we have a few minutes

to get some evidence out of the box?

10

THE COURT:

Yes.

11

And while the Government is doing that, let me just

12

explain to you some of the logistics here.

13

attorneys may use these screens to show exhibits to the

14

witnesses and the big screen there for the people in the

15

audience.

16

evidence, you won't see it on your screen.

17

lawyers and I might see the exhibit and the witness, but you

18

will not see it until it's admitted into evidence.

19

At times the

Until the exhibit is actually admitted into
So sometimes the

Further, if the screens are used and the computer

20

system is used, that doesn't mean that you won't have a hard

21

copy of the exhibit when you start your deliberations.

22

example, if a photograph is shown to you on the screen and

23

admitted into evidence, you will have a hard copy of that

24

photograph when you start your deliberations.

25

So, all right.

For

Mr. Duryee.

A032

AP P ENDI X6

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 1 of 50

CA NO. 19-10252
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JESUS EDER MORENO ORNELAS,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)

(D.Ct. 4:14-cr-01568-CKJ)

APPELLANT'S OPENING BRIEF

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
HONORABLE CINDY K. JORGENSON
United States District Judge

CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Telephone (626) 667-9580
Attorney for Defendant-Appellant

A033

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 10 of 50

CA NO. 19-10252
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
JESUS EDER MORENO ORNELAS,
Defendant-Appellant.

(D.Ct. 4:14-cr-01568-CKJ)

APPELLANT'S OPENING BRIEF

I.
STATEMENT OF JURISDICTION
This appeal is from judgments of conviction for multiple criminal offenses.
The district court had jurisdiction under 18 U.S.C. § 3231. This Court has
jurisdiction under 18 U.S.C. § 3742(a) and 28 U.S.C. § 1291. The appeal is timely
because judgment was entered on July 16, 2019, ER 96-100, and a notice of appeal
was filed on July 26, 2019, ER 95.

*

*

*

-1A034

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 11 of 50

II.
STATEMENT OF ISSUES PRESENTED
A.

MUST FELON IN POSSESSION OF A FIREARM AND ILLEGAL

ALIEN IN POSSESSION OF A FIREARM CONVICTIONS BE VACATED
BECAUSE THE GOVERNMENT FAILED TO PROVE, THE INDICTMENT
FAILED TO ALLEGE, AND THE INSTRUCTIONS FAILED TO REQUIRE,
THAT MR. MORENO KNEW HE HAD BEEN CONVICTED OF A CRIME
PUNISHABLE BY IMPRISONMENT FOR A TERM EXCEEDING ONE YEAR
IN PRISON AND/OR HE WAS IN THE COUNTRY ILLEGALLY OR
UNLAWFULLY, AS REQUIRED BY REHAIF V. UNITED STATES, 139 S. Ct.
2191 (2019)?
B.

WAS IT ERROR TO USE AN ALLEGED ATTEMPTED MURDER TO

ENHANCE THE SENTENCE BECAUSE THE JURY FAILED TO REACH A
VERDICT ON A CHARGE OF ATTEMPTED MURDER, AND UNITED
STATES V. WATTS, 519 U.S. 148 (1997), PERMITTING CONSIDERATION OF
CONDUCT OF WHICH THE DEFENDANT WAS NOT CONVICTED, HAS
BEEN UNDERMINED BY NELSON V. COLORADO, 137 S. Ct. 1249 (2017)?
C.

WAS THERE AN ABUSE OF DISCRETION IN THE DISTRICT

COURT’S APPLICATION OF A FIREARMS GUIDELINE CROSS
REFERENCE – IN USING THE GUIDELINE FOR ATTEMPTED FIRST
DEGREE MURDER RATHER THAN THE GUIDELINE FOR ATTEMPTED
SECOND DEGREE MURDER – BECAUSE THE EVIDENCE WAS
INSUFFICIENT TO SUPPORT A FINDING OF PREMEDITATION AND
THERE IS SOME INDICATION THE DISTRICT COURT APPLIED

-2A035

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 12 of 50

INCORRECT LEGAL STANDARDS?

III.
BAIL STATUS OF DEFENDANT

Mr. Moreno is presently serving the sentence imposed by the district court.
His projected release date is August 23, 2052.

IV.
STATEMENT OF CASE

A.

ARREST AND INDICTMENT.

On August 23, 2014, Mr. Moreno was arrested after a struggle with a United
States Forest Service officer named Devin Linde during which several shots were
fired from the officer’s gun. Mr. Moreno was subsequently indicted for assault on
a federal officer, in violation of 18 U.S.C. § 111(b); attempted murder of a federal
officer, in violation of 18 U.S.C. §§ 1111, 1113, and 1114; discharge of a firearm
during the assault and attempted murder, in violation of 18 U.S.C. § 924(c);
attempted robbery of Officer Linde’s firearm, in violation of 18 U.S.C. § 2112;
attempted robbery of Officer Linde’s vehicle, in violation of 18 U.S.C. § 2112;
being a felon in possession of a firearm, in violation of 18 U.S.C. § 922(g)(1);
being an illegal alien in possession of a firearm, in violation of 18 U.S.C. §
922(g)(5)(A); and being found in the country illegally after having been deported,
in violation of 8 U.S.C. § 1326. ER 472-75.

-3A036

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 13 of 50

B.

TRIAL.

Trial began on June 22, 2015. See CR 81. That there was a struggle and
shots fired during the struggle was undisputed, but how and why the shots were
fired was disputed.

1.

Officer Linde’s Testimony.

Officer Linde was on patrol in a mountainous area in southern Arizona on
the day of the incident. ER 287-88. A Forest Service technician told him there
was a report of three illegal aliens in the area, one of whom was injured. ER 288.
Another Forest Service employee subsequently informed Officer Linde he had just
passed the individuals in a nearby wildlife preserve. ER 290.
Officer Linde called the Border Patrol, which asked him to assist, and he
said he would. ER 290, 294. He drove toward the wildlife preserve and observed
two men walking on a road. ER 294-95. Officer Linde stopped and asked the two
men if they needed water, and they said no. ER 295.
Officer Linde then ordered the men to put their hands on the front of his
vehicle. ER 295. One of the men complied. ER 297. The other man, who was
Mr. Moreno, did not comply. ER 297. Officer Linde testified Mr. Moreno
“wasn’t standing still, was moving around, and was very agitated.” ER 297. He
clenched his fists, squared his shoulders, and looked angry – which Officer Linde
labeled “pre-assault indicators” – and then started “charging” Officer Linde. ER
297-98.
Officer Linde testified he pulled out his pistol and told Mr. Moreno to get
back. See ER 298. He testified Mr. Moreno put his hands up and walked back to
-4A037

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 14 of 50

the front of the vehicle. See ER 298-99. Officer Linde told the other man to prone
out and walked up to Mr. Moreno. ER 299-300. Officer Linde kept his pistol out
until he was “a couple of feet away,” but claimed he holstered it before starting to
handcuff Mr. Moreno. ER 300. He handcuffed the right hand and almost had the
second handcuff on the left hand when Mr. Moreno pulled away. ER 428-29. See
also ER 315.
Officer Linde testified he had a blank in his memory at this point, and “[t]he
next thing I knew he was in my area and we were fighting.” ER 315. He testified
he remembered Mr. Moreno “going for my pistol on my holster,” “used my hands
to retain the pistol,” and at that time, “I went to the ground.” ER 316. Mr.
Moreno ended up on top of him and was punching him in the face. ER 317. The
officer testified there was then another blank in his memory until he felt “the
sensation of my pistol being pulled out of my holster.” ER 318.
Officer Linde then testified about several shots. He remembered two shots
being fired as the pistol was coming out of the holster and he was trying to retain
it. See ER 318-19. He felt the pistol was being pushed into his chest, at which
time he pushed it to the side, and another shot fired, which he testified “went to
my right,” “by my chest, by my ear, my head.” ER 320. He kept both of his hands
on Mr. Moreno’s left wrist and was able to keep the gun up and pointed away from
his chest. ER 321.
Mr. Moreno then tried to get off of Officer Linde, ER 321, but Officer Linde
locked his legs around Mr. Moreno’s neck in a “tactical fighting” “MMA move”
called “a modified triangle.” ER 322. He squeezed Mr. Moreno’s neck as hard as
he could, and Mr. Moreno fired “a bunch of rounds up into the air,” which was
where the gun was pointed, ER 322-23. Mr. Moreno dropped the pistol, and
Officer Linde picked it up and tried to shoot Mr. Moreno. ER 323-24. The gun
-5A038

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 15 of 50

would not fire, so Officer Linde “kicked myself out of there,” backed up, and did a
“tactical reload.” ER 324-25. While Officer Linde was pointing the gun at Mr.
Moreno, Mr. Moreno, who was on his knees, put his hands in the air and “started
yelling no, no, no, no, no.” ER 324, 441. When Officer Linde did the tactical
reload, Mr. Moreno ran toward Officer Linde’s truck. ER 325.
Officer Linde did not fire at this point because there were no weapons in the
vehicle and it had a security system that prevents it from being driven away even if
the engine is running. ER 327. Mr. Moreno got into the vehicle when he reached
it. ER 328. Officer Linde followed Mr. Moreno, put the gun to Mr. Moreno’s
chest, and told Mr. Moreno he would kill him if he moved. See ER 329.

2.

Mr. Moreno’s Statement.

Mr. Moreno presented a different version of events in a videotaped
interview, most of which came into evidence under the rule of completeness when
the government sought to introduce just short excerpts, see RT(6/29/15) 25-26, 29;
RT(6/29/15) 82-83. Mr. Moreno admitted he did not comply with Officer Linde’s
initial commands and was going to leave, but was afraid Officer Linde was going
to shoot him. See ER 207. Mr. Moreno said he grabbed the officer and went after
the gun when the officer came closer and handcuffed one of his hands with the
gun still out. See ER 216-19. He explained three shots were fired while the men
were struggling for the gun, the first when he “tackled” the officer, and the other
two when they fell to the ground, with the third shot almost hitting his companion.
See ER 217-19, 252. He stated he wanted to empty the weapon and then throw it
away, so he fired more shots into the air until the gun stopped firing after he got it
out of the officer’s hand. See ER 221, 255. His intention when he ran to the
-6A039

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 16 of 50

officer’s truck was to take the car, drive it to the border, leave it there, and “jump,”
but he realized that was “stupidity” after he got into the truck. ER 228-29.

3.

Evidence of Felon and Illegal Alien Status.

To support the felon in possession of a firearm and illegal alien in
possession of a firearm counts and the illegal reentry count, the government
introduced a stipulation which it read into evidence at the beginning of trial. See
ER 466-71. The stipulation established the elements of the illegal reentry offense
and also the status for the unlawful firearm possession counts, i.e., that Mr.
Moreno had a prior felony conviction and was in the country illegally. See ER
466-71.
There was no other evidence introduced about Mr. Moreno’s felony
conviction, but there were some passing references to his entry and presence in the
United States. The man who had been with Mr. Moreno testified in a material
witness deposition introduced into evidence that, “I came illegally through the
desert,” that Mr. Moreno and others were with him when he came, and that they
crossed over with marijuana. ER 137. A sheriff’s detective who had participated
in the post-arrest interrogation of Mr. Moreno claimed Mr. Moreno admitted in the
interrogation that he was in the country illegally, see RT(6/26/15) 211, but the
actual transcript of the interrogation which was introduced contained no such
admission, see ER 109-24, 193-275. Mr. Moreno did indicate he had crossed the
border by using a ladder to go over the fence, see ER 195, but he did not say that
was because he could not be in the country legally rather than because his
companion could not enter or because of the marijuana his companion said they
were bringing. Mr. Moreno indicated he had wanted to avoid the Border Patrol,
-7A040

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 17 of 50

see ER 199, 201, but he did not say that was because of his illegal presence rather
than his companion’s illegal presence. He said the reason he resisted when Office
Linde tried to handcuff him was that he did not want to go to “the can,” ER 259;
see also ER 248, 253-54, but he did not say he thought he could be jailed for being
in the country illegally rather than for his non-compliance with Officer Linde’s
initial orders.

C.

JURY DELIBERATIONS AND VERDICT.

The jury had difficulty reaching verdicts. During the first day of
deliberations, the jury sent out a note asking whether the force for attempted
robbery had to be concurrent with the act of taking possession, but the court
simply referred it back to the jury instructions, the argument, and the evidence.
See CR 101, at 2. Deliberations continued into the next day, when the jury sent
out a note stating it had unanimous verdicts “on several counts,” but remained
“deeply divided on some elements of the other counts.” CR 101, at 3. The court
gave an “Allen charge,” and told the jury to continue deliberating. See RT(7/2/15
a.m.) 5-7.
Several hours later, the jury sent out another note, stating it had reached
verdicts on seven counts but remained deadlocked on the remaining count. See
CR 101, at 4. There were verdicts of guilty on the assault count, the 18 U.S.C. §
924(c) count, the attempted robbery counts, the felon and illegal alien in
possession of firearm counts, and the illegal reentry count. See RT(7/2/15 p.m.) 34. The count on which the jury had not reached a verdict was the attempted
murder count, and the court declared a mistrial on that count. See RT(7/2/15 p.m.)
7.
-8A041

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 18 of 50

D.

THE FIRST SENTENCING.

The probation office prepared a presentence report in which it calculated an
offense level under the sentencing guidelines. It applied the Part 3D “grouping”
rules to “group” all of the counts other than the 18 U.S.C. § 924(c) count and the
illegal reentry count. See PSR, ¶¶ 13-15.1 It then applied the guideline that
produced the highest offense level, as required by § 3D1.3(a) of the guidelines.
See PSR, ¶ 16. That was the guideline for the felon and illegal alien in possession
of firearm counts – § 2K2.1. See PSR, ¶ 17.
This guideline produced the highest offense level because it contains a cross
reference requiring application of the attempt guideline in § 2X1.1 when the
firearm is used in the attempted commission of another offense. See PSR, ¶ 17
(citing U.S.S.G. § 2K2.1(c)(1)). The presentence report opined there was such an
offense in the present case because “clear and convincing evidence would appear
to establish that the defendant did attempt to use the firearm in question to commit
second degree murder.” PSR, ¶ 17. The report then calculated a base offense
level of 38 based on the second degree murder guideline, in apparent reliance on
subsection (a) of § 2X1.1, which makes the base offense level for an attempt
offense “[t]he base offense level from the guideline for the substantive offense,
plus any adjustments from such guideline for any intended offense conduct that

1

There were multiple presentence reports filed, including an initial
presentence report, a revised presentence report with an addendum responding to
objections by the parties, and a further revised presentence report with a second
addendum filed prior to resentencing after remand, see infra p. 14. The reports are
cited as “PSR,” “Revised PSR,” and “Remand PSR,” respectively, and are each
being filed under seal pursuant to Interim Circuit Rule 27-13(d).
-9A042

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 19 of 50

can be established with reasonable certainty.” U.S.S.G. § 2X1.1(a).2 It also added
6 levels for “official victim” under § 3A1.2(c)(1), based on the fact Officer Linde
was a law enforcement officer, see PSR, ¶ 19, and 2 levels for obstruction of
justice under § 3C1.1, based on the government’s claim Mr. Moreno had made
threatening gestures during witnesses’ testimony, see PSR, ¶¶ 11, 21.
The defense objected to the base offense level calculation on two grounds.
First, the defense pointed out there is a specific guideline for attempted murder –
in § 2A2.1 – and § 2X1.1(c)(1) requires the specific guideline to be used when one
exists. See CR 112, at 2-4. Second, the defense objected to the consideration of
conduct which had not been found by the jury, though it acknowledged Ninth
Circuit authority allowing consideration of such conduct. See CR 112, at 5-6. The
defense agreed the clear and convincing evidence standard applied, see CR 112, at
5, and agreed any murder which was attempted was second degree murder, see CR
112, at 6-7, which would produce a base offense level of 27 under § 2A2.1, see
U.S.S.G. § 2A2.1(a)(2).3

2

Subsection (b)(1) of § 2X1.1 adds a 3-level reduction “unless the
defendant completed all the acts the defendant believed necessary for successful
completion of the substantive offense or the circumstances demonstrate that the
defendant was about to complete all such acts but for apprehension or interruption
by some similar event beyond the defendant’s control.” U.S.S.G. § 2X1.1(b)(1).
The presentence report recommended against this reduction because
“circumstances demonstrate the defendant would have committed all acts
necessary for the successful completion of the substantive offense but for
apprehension or interruption by some event beyond the defendant’s control.”
PSR, ¶ 18.
3

The defense also objected to the obstruction of justice adjustment and an
enhancement under the illegal reentry guideline for the illegal reentry count, see
CR 112, at 10-12, 13-14, but those objections are not pertinent to the issues raised
in this appeal.
-10A043

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 20 of 50

The government agreed the cross reference should be to § 2A2.1, but
asserted the court could consider relevant conduct and Mr. Moreno had attempted
a first degree murder rather than a second degree murder, arguing there had been
premeditation in addition to intent to kill. See CR 117, at 10-11.4 This made the
base offense level 33 rather than 27, see CR 117, at 11; U.S.S.G. § 2A2.1(a)(1),
and produced a total offense level of 41 after the official victim and obstruction of
justice enhancements, see CR 117, at 17-18.
The probation office prepared a revised presentence report in response to
the objections. See Revised PSR. It accepted the objection that the cross
reference should be to § 2A2.1 and modified the recommended base offense level
to 27, see Revised PSR, ¶ 17 & Addendum, at 22, without addressing the
government argument that the attempted murder was first degree rather than
second degree. This produced a total offense level of 35 when the official victim
and obstruction of justice enhancements were added, see Revised PSR, ¶¶ 21, 34,
and a guideline range of 262 to 327 months, plus 120 months, when combined
with Mr. Moreno’s criminal history category of V and a mandatory consecutive
sentence on the 18 U.S.C. § 924(c) count, see Revised PSR, ¶ 60.
The parties then appeared for sentencing. Defense counsel argued the court
should not apply any attempted murder guideline, but should apply the aggravated
assault guideline, without further addressing the question of premeditation. See
ER 41-42. The prosecutor reiterated the government’s position that the court
should apply the attempted murder guideline and that Mr. Moreno had attempted
first degree murder because there was premeditation. See ER 51-58. The court

4

The government did not object to the clear and convincing evidence
standard, but simply summarized Ninth Circuit case law on the question and
asserted there was sufficient evidence under either standard. See CR 117, at 7-8.
-11A044

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 21 of 50

agreed with the government and found a base offense level, total offense level, and
guideline range of 33, 41, and 360 months to life, respectively. See ER 65-67.
Combining this range with the mandatory consecutive sentence required for the 18
U.S.C. § 924(c) count, the court imposed a total sentence of 520 months. See ER
77-78.

E.

THE FIRST APPEAL.

Mr. Moreno appealed after judgment was entered. The appeal focused on
his convictions rather than his sentence. See United States v. Ornelas, 906 F.3d
1138 (9th Cir. 2018), cert. denied, 139 S. Ct. 2638 (2019). He challenged multiple
instructions, including the instruction on self defense, the instruction on the
“official duty” requirement in the assault on a federal officer statute, and the
instructions on attempted robbery. See id. at 1142-49. He also challenged the
district court’s exclusion of a defense expert for untimely disclosure of the
expert’s testimony. See id. at 1149-51. The expert’s testimony would have
explained how the gun could have fired accidentally during the struggle. See id. at
1150.
This Court rejected the challenge to exclusion of the expert and most of the
instructional challenges, see id. at 1146-51, but agreed the attempted robbery
instructions were erroneous, see id. at 1142-45. It further found the error was
plain so the attempted robbery convictions must be vacated. See id. at 1145-46.
The opinion concluded:
For the foregoing reasons, we reverse Moreno’s convictions for
attempted robbery and remand for a new trial on those charges.
We affirm Moreno’s remaining convictions.
Id. at 1151-52.
-12A045

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 22 of 50

F.

PROCEEDINGS ON REMAND.

The government chose not to retry the attempted robbery counts on remand.
See RT(1/22/19) 3. The parties then discussed how Mr. Moreno should be
resentenced. See RT(1/22/19) 3-12. Defense counsel noted that “the Ninth Circuit
cases that we’re looking at talk about how the sentencing package has become
unbundled and that a new sentencing should occur under the circumstances.”
RT(1/22/19) 5. Counsel then filed a memorandum of law reiterating this:
Ninth Circuit case law indicates that once some counts,
among multiple, are remanded, the sentencing package has
become “unbundled,” and a completely new analysis should
occur as if no sentencing had previously occurred. [United
States v.] Ruiz-Alvarez, 211 F.3d [1181,] 1184 (9th Cir. 2000)
(citing United States v. McClain, 133 F.3d 1191, 1193 (9th Cir.
1998)). The District Court has authority to re-examine the
sentence and carefully consider a new judgment based on
counts for which a defendant is still actually convicted. Id.
CR 175, at 2. The defense memorandum further argued this was particularly
appropriate in the present case because “expert testimony, precluded previously
due to a timing issue, would greatly assist the Court in fully analyzing the nature
and circumstances of the incident before a new sentencing.” CR 175, at 3. The
government filed a memorandum of law arguing the defense was not entitled to a
full resentencing and it was not appropriate to revisit factual issues. See CR 179,
at 4.
The court responded with an order that took a middle ground. On the one
hand, it stated, “Contrary to Ornelas’ argument, the Ninth Circuit did not state that
a new analysis should occur as if no sentencing had previously occurred,” though
it did not suggest the Ninth Circuit had affirmatively stated the contrary, as Ninth
Circuit case law requires, see United States v. Pimentel, 34 F.3d 799 (9th Cir.
1994) (noting failure to raise guideline issue in first appeal does not preclude
-13A046

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 23 of 50

defendant from arguing issue on remand, “as a general proposition,” and argument
precluded in instant case only because first opinion “expressly limited” scope of
remand); United States v. Caterino, 29 F.3d 1390, 1394-95 (9th Cir. 1994)
(explaining “general practice” is “to vacate entire sentence and remand for
resentencing” and “we presume that this general practice was followed unless
there is clear evidence to the contrary” (emphasis in original)). The district court
then stated it nonetheless could allow such a full resentencing and would do so in
this case.
However, while the Ninth Circuit has not determined
that the Court should “start the sentencing process on a clean
slate,” [quoting CR 175, at 2], the Court is not aware of any
authority that prohibits such a process. Indeed, in RuizAlvarez, the court stated a new sentencing package reflects a
district court’s considered judgment as to the punishment a
defendant deserves. Ruiz-Alvarez, 211 F.3d at 1184. The court
finds it is appropriate to allow the parties to submit additional
information at the resentencing.
CR 180, at 1-2.
The probation office prepared a new presentence report following this order.
See Remand PSR. It made revisions to reflect the district court’s findings at the
first sentencing. See Remand PSR, Second Addendum, at 25. This made the base
offense level 33, based on attempted first degree murder; made the total offense
level 41; and made the guideline range 360 months to life, plus the 120-month
consecutive sentence for the 18 U.S.C. § 924(c) count. See Remand PSR, Second
Addendum, at 25.
The court then held a full resentencing hearing. It first heard lengthy
testimony from the defense expert it had excluded at trial, who opined the gun had
been accidentally fired during the struggle. See RT(7/16/19) 5-62. It then heard
argument on the various sentencing issues, including the question of whether there
had been premeditation in addition to any intent to kill. See ER 2-15. This time,
-14A047

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 24 of 50

defense counsel vigorously argued the middle ground of intent to kill but no
premeditation. See ER 9-11. The prosecutor argued there was premeditation. See
ER 11-15.
The court again agreed with the prosecutor. It stated it was “adopting my
previous analysis.” ER 15. It also stated it found Officer Linde credible and the
defense expert not credible. See ER 15-17. It stated, when defense counsel asked
for clarification:
I really think premeditation can occur very quickly. There’s no
set time.
And given the way this incident occurred, I think Mr.
Ornelas had plenty of time and was clearheaded. I don’t think
he was dehydrated. There’s no evidence that he was suffering
from any mental deficiencies. He had incredible strength that
day. He was absolutely determined not to be taken into
custody. And I think he had an abundance of time to figure out
what he was going to do and how he was going to behave. And
he made choices and I think one of his choices was to attempt
to kill this agent with the agent’s firearm so that he wouldn’t be
apprehended.
ER 19-20. It then again imposed a 520-month sentence. See ER 31-32, 96-97.

V.
SUMMARY OF ARGUMENT

Initially, the unlawful firearm possession convictions which drove the
guideline calculation must be vacated, because of a change in the law worked by
the Supreme Court’s recent decision in Rehaif v. United States, 139 S. Ct. 2191
(2019). Rehaif held the statute making it unlawful for felons and illegal aliens to
possess firearms requires proof that the defendant is a felon or illegal alien and
that he knew he was a felon or illegal alien. That knowledge was neither charged
in the indictment here, required to be found by the jury instructions here, or proven
beyond a reasonable doubt here. The convictions must be vacated as a result.
-15A048

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 25 of 50

Mr. Moreno’s sentence must be vacated even if the convictions are not,
moreover. Initially, the jury’s failure to reach a verdict on the attempted murder
charge made it error to consider the alleged attempted murder at all. United States
v. Watts, 519 U.S. 148 (1997), did hold that a court may enhance a guidelines
sentence based on conduct the defendant was not convicted of, but Watts has been
undermined by the intervening Supreme Court decision in Nelson v. Colorado,
137 S. Ct. 1249 (2017). Nelson relied upon the presumption of innocence to
invalidate a statute requiring a defendant to prove innocence to recover monetary
penalties imposed for a conviction which was subsequently vacated. The Court
explained the appellants were not, “adjudged guilty of no crime, nonetheless guilty
enough for monetary exactions.” Id. at 1256. Similarly, Mr. Moreno, adjudged
guilty of no attempted murder, cannot be guilty enough for a sentencing
enhancement. Watts is not controlling because it considered only statutory law,
historical practice, and double jeopardy principles, and did not consider the
presumption of innocence.
If the Court feels Watts remains controlling, there remains a second reason
the sentence must be vacated. There was an abuse of discretion in the district
court’s application of the firearms guideline cross reference – in its use of the
guideline for attempted first degree murder rather than the guideline for attempted
second degree murder. It was an abuse of discretion both because the evidence
was insufficient to support a finding of the premeditation required for attempted
first degree murder and because there is some indication the district court applied
incorrect legal standards.
The evidence was insufficient because this Court’s cases finding
premeditation have relied upon evidence such as planning activity rather than
spontaneous action; calm, calculated behavior rather than agitated, rushed
-16A049

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 26 of 50

conduct; and an existing relationship which provides a motive for premeditated
murder. Here, there was no existing relationship, Officer Linde described Mr.
Moreno as “agitated” multiple times, and there was no evidence of planning, but
an attempted detention which erupted into a dangerous struggle.
There also was some indication the district court applied incorrect legal
standards, which is enough to require remand. First, both the district court and the
government appeared to conflate the premeditation required for first degree
murder and the intent required for both degrees of murder by speaking far more of
intent and lack of self defense than premeditation. Second, both the government
and court overly minimized the time necessary for premeditation.

VI.
ARGUMENT

A.

THE FELON IN POSSESSION OF A FIREARM AND ILLEGAL ALIEN

IN POSSESSION OF A FIREARM CONVICTIONS MUST BE VACATED
BECAUSE THE GOVERNMENT FAILED TO PROVE, THE INDICTMENT
FAILED TO ALLEGE, AND THE INSTRUCTIONS FAILED TO REQUIRE,
THAT MR. MORENO KNEW HE HAD BEEN CONVICTED OF A CRIME
PUNISHABLE BY IMPRISONMENT FOR A TERM EXCEEDING ONE YEAR
IN PRISON AND/OR HE WAS IN THE COUNTRY ILLEGALLY OR
UNLAWFULLY, AS REQUIRED BY REHAIF.

1.

Reviewability and Standard of Review.

Defense counsel made a motion for judgment of acquittal “on each and
-17A050

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 27 of 50

every count because the Government has failed to carry it’s [sic] burden of
proving each and every element of those counts,” ER 86, which motion the
district court denied, see ER 94. See also ER 82 (renewal of motion to assure no
waiver). Rulings on such motions are reviewed de novo. United States v. NieblaTorres, 847 F.3d 1049, 1054 (9th Cir. 2017). The test is whether “viewing the
evidence in the light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319 (1979).
Defense counsel did not object to the sufficiency of the indictment or the
instructions. Those claims are therefore reviewable for plain error. See United
States v. Pelisaman, 641 F.3d 399, 404 (9th Cir. 2011); United States v. Arnt, 474
F.3d 1159, 1162 (9th Cir. 2007).5

2.

There Was Insufficient Evidence to Support the Convictions Because

There Was Insufficient Evidence of the Knowledge Required by Rehaif.

18 U.S.C. § 922(g) provides “it shall be unlawful” for certain individuals to
possess firearms. Rehaif, 139 S. Ct. at 2194 (quoting § 922(g)). Mr. Moreno was
charged under two subsections of this statute. The first was subsection (g)(1),
which includes “any person . . . who has been convicted in any court of, a crime
punishable by imprisonment for a term exceeding one year.” 18 U.S.C. §
922(g)(1). See ER 474. The second was subsection (g)(5)(A), which includes
“any person . . . who, being an alien . . . , is illegally or unlawfully in the United

5

That the claims were not raised in Mr. Moreno’s first appeal does not
preclude review because they are based on an intervening change in the law. See
United States v. Van Alstyne, 584 F.3d 803, 813 (9th Cir. 2009).
-18A051

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 28 of 50

States.” 18 U.S.C. § 922(g)(5)(A). See ER 475.
A separate provision – 18 U.S.C. § 924(a)(2) – establishes the mens rea and
maximum penalty for the possession and other acts6 made unlawful by § 922(g). It
provides that anyone who “knowingly violates” § 922(g), shall be fined or
imprisoned for up to 10 years. Rehaif, 139 S. Ct. at 2194 (quoting § 924(a) and
adding emphasis). The question considered in Rehaif was
the scope of the word “knowingly.” Does it mean that the
Government must prove that a defendant knew both that he
engaged in the relevant conduct (that he possessed a firearm)
and also that he fell within the relevant status (that he was a
felon, an alien unlawfully in the country, or the like)?
Rehaif, 139 S. Ct. at 2194.
The Court’s holding – overruling the law of this and every other circuit, see
Brief for the United States at 32-33, Rehaif v. United States, 139 S. Ct. 2191
(2019) (No. 17-9560) (collecting circuit cases) – was:
[T]he word “knowingly” applies both to the defendant’s
conduct and to the defendant’s status. To convict a defendant,
the Government therefore must show that the defendant knew
he possessed a firearm and also that he knew he had the
relevant status when he possessed it.
Rehaif, 139 S. Ct. at 2194. The Court’s reasons included what “ordinary English
grammar” suggests, id. at 2196; the importance of requiring scienter, or a “vicious
will,” for criminal offenses, id. at 2196-97; and the need to separate innocent from
wrongful conduct, id. at 2197. The specific subsection of § 922(g) that the Court
considered was possession by an alien unlawfully in the United States, see id. at
2194, but its reasoning extends to possession by a person convicted of a crime
punishable by imprisonment for a term exceeding one year, as evidenced by the
Court’s use of that as an example, see id. at 2198; see also United States v.
6

Section 922(g) also applies to shipping or transporting and receiving of
firearms by the listed categories of persons. See id.
-19A052

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 29 of 50

Benamor, 937 F.3d 1182, 1188 (9th Cir. 2019) (holding absence of instruction
requiring the jury to find defendant knew he was felon “was clear error under
Rehaif”).
This means a defendant can be convicted of being a felon in possession of a
firearm and/or being an illegal alien in possession of a firearm only if there is
evidence establishing beyond a reasonable doubt that he knows he is a felon – in
the technical language of the statute, that he has been “convicted of . . . a crime
punishable by imprisonment for a term exceeding one year” – and/or knows that
he is illegally or unlawfully in the United States. The evidence in the present case
did not establish this knowledge beyond a reasonable doubt.
To begin, the stipulation which was offered to support the unlawful firearm
possession counts and the illegal reentry count did not establish Mr. Moreno’s
knowledge of his status. That stipulation read in full as follows:
1.
The defendant, Jesus Eder Juanni Moreno-Ornelas, was
born in Mexico, and is not, nor has he ever been, a national or
naturalized citizen of the United States.
2.
The defendant, Jesus Eder Juanni Moreno-Ornelas, was
deported and removed from the United States on May 18, 2014.
3.
The defendant, Jesus Eder Juanni Moreno-Ornelas,
admits that he has not at any time obtained the consent of the
Attorney General or the Secretary of the Department of
Homeland Security to reapply for admission to the United
States.
4.
The defendant, Jesus Eder Juanni Moreno-Ornelas, was
illegally or unlawfully present in the United States on August
23, 2014.
5.
The defendant, Jesus Eder Juanni Moreno-Ornelas, had
been previously convicted of a crime punishable by
imprisonment for a term exceeding one year.
ER 466-67.
Glaringly absent from the stipulation is an agreement Mr. Moreno knew the
crime he was convicted of was punishable by imprisonment for a term exceeding
-20A053

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 30 of 50

one year. Also absent from the stipulation is an agreement Mr. Moreno knew he
was in the country illegally or unlawfully. There was an agreement Mr. Moreno
was deported and removed on May 18, 2014, and was present in the country again
on August 23, 2014. But unlawful presence at the time of deportation does not
establish knowledge that presence three months later is unlawful; a person might
go back to his home country, do what he thinks he needs to do to return to the
United States, and then think he can return lawfully. There was also the
agreement Mr. Moreno “has not at any time obtained the consent of the Attorney
General or the Secretary of the Department of Homeland Security to reapply for
admission in the United States,” but that also does not establish knowledge that
return is unlawful; a person might not know the consent of the Attorney General or
Secretary of the Department of Homeland Security is required for a lawful return.
On the felon in possession count, the stipulation was the only evidence
about Mr. Moreno’s status, so the government did come even close to establishing
the knowledge of status required by Rehaif. On the illegal alien count, there was
some additional evidence. This included an interrogating officer’s claim that Mr.
Moreno had directly admitted he was in the country illegally. See supra p. 7. In
most instances, this would defeat a sufficiency of evidence claim because a jury
has “wide latitude” in deciding whether to accept a witness’s testimony. United
States v. Clevenger, 733 F.2d 1356, 1359 (9th Cir. 1984). But in this instance,
there was an actual transcript of the interrogation which showed what was actually
said, and it showed no such admission. See supra pp. 7-8.
The transcript did include other admissions that could raise suspicion,
including admissions that Mr. Moreno had crossed the border by climbing over the
fence on a ladder, that he wanted to avoid the Border Patrol, and that the reason he
resisted being handcuffed was that he did not want to go to “the can.” See supra
-21A054

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 31 of 50

pp. 7-8. But there are explanations other than illegal status for each of these.
Crossing by climbing the fence could be explained by the companion’s deposition
testimony that he was coming illegally and that the men crossed with marijuana,
which they could not bring through a port of entry. Wanting to avoid the Border
Patrol could be explained by a concern about the companion being in the country
illegally and Mr. Moreno being accused of aiding him. Concern about going to
“the can” could have been a concern that Mr. Moreno might go to jail for his noncompliance with Officer Linde’s initial orders.
This additional evidence does make it a closer question than for the felon in
possession count. But “[r]eview of the evidence in the light most favorable to the
government must still meet the requirement of proof beyond a reasonable doubt.”
United States v. Recio, 258 F.3d 1069, 1072 n.2 (9th Cir. 2000), rev’d on other
grounds, 537 U.S. 270 (2003). See also United States v. Nevils, 598 F.3d 1158,
1167 (9th Cir. 2010) (en banc) (acknowledging evidence construed most favorably
to government “may still be so supportive of innocence that no rational juror could
conclude that the government proved its case beyond a reasonable doubt”). This
is a high hurdle that the ambiguous evidence here does not quite clear.
In sum, the felon in possession count clearly must fall, because the
government did even come close to establishing beyond a reasonable doubt the
knowledge of status required by Rehaif. On the illegal alien in possession count, it
is a closer question, but, on balance, the evidence is too ambiguous to rise to the
level of proof beyond a reasonable doubt. The Court should therefore order
judgments of acquittal on both counts.

-22A055

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 32 of 50

3.

The Indictment and Jury Instructions Were Deficient Because They

Failed to Allege and Require a Finding of the Knowledge Required by Rehaif.

In addition to insufficient evidence, there were a deficient indictment and
deficient jury instructions. The only knowledge the indictment alleged was that
Mr. Moreno “did knowingly possess a firearm and ammunition.” ER 474, 475.
All it said about the prior conviction and unlawful presence was that they existed,
to wit, that Mr. Moreno “ha[d] been previously convicted of a crime punishable by
imprisonment for a term exceeding one year,” ER 474, and that Mr. Moreno was
“an alien illegally and unlawfully present in the United States,” ER 475. The
instructions also modified only the “possessed a firearm and/or ammunition”
element with “knowingly” and required no finding of knowledge of the felon or
illegal alien status. See ER 102, 103.
These deficiencies were indisputably clear error that satisfies the first two
prongs of the plain error standard. See United States v. Benamor, 937 F.3d at
1188. The only question remaining is whether there was prejudice, i.e., whether
the error affected Mr. Moreno’s substantial rights and the fairness, integrity, or
public reputation of judicial proceedings. See United States v. Olano, 507 U.S.
725, 734, 736 (1993).
In the case of a deficient indictment, “[t]he key question . . . is whether an
error or omission in an indictment worked to the prejudice of the accused.” United
States v. Arnt, 474 F.3d at 1162 (internal quotation marks omitted). There is no
prejudice rising to the level of plain error “where [the defendant’s] counsel has
notice of the omitted element and the jury is properly instructed regarding the
missing element.” Id. Neither of these saving facts was present here. Mr.
Moreno’s counsel could not have had notice of the omitted element because
-23A056

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 33 of 50

Rehaif had not been decided and Ninth Circuit case law, as well as that of all other
circuits, was to the contrary, see supra p. 19. And the jury was not properly
instructed on the knowledge element, as noted supra p. 23.
In the case of deficient jury instructions, the question is whether there is a
“reasonable probability” that the error “affected the jury’s verdict,” United States
v. Ornelas, 906 F.3d 1138, 1145 (9th Cir. 2018), cert. denied, 139 S. Ct. 2638
(2019), and whether “the ‘instructions improperly deprived [the defendant] of his
right to have a jury determine an essential element’ of the offense: ‘mental state,’”
id. at 1146 (quoting United States v. Paul, 37 F.3d 496, 501 (9th Cir. 1994)). The
latter requirement is satisfied here because an essential “mental state” element,
namely, the knowledge of status required by Rehaif, is precisely what the
instructions omitted. There is also a reasonable probability the error affected the
verdict. On the felon in possession count, there was no evidence at all of Mr.
Moreno’s knowledge because the only evidence was the one sentence about his
prior felony conviction in the stipulation, with nothing at all about his knowledge.
On the illegal alien in possession count, there was the additional evidence
discussed supra pp. 21-22, but that was ambiguous for the reasons there discussed.
The evidence arguably did not satisfy even the “viewing the evidence in the light
most favorable to the prosecution, any rational trier of fact could have found”
standard for sufficiency of the evidence, supra p. 18, and that leaves it far short of
the “reasonable probability” standard for evaluating prejudice from instructional
error. A new trial is required if judgments of acquittal are not entered.

-24A057

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 34 of 50

B.

IT WAS ERROR TO USE THE ALLEGED ATTEMPTED MURDER TO

ENHANCE THE SENTENCE BECAUSE THE JURY FAILED TO REACH A
VERDICT ON THE ATTEMPTED MURDER CHARGE, AND WATTS,
PERMITTING CONSIDERATION OF CONDUCT OF WHICH THE
DEFENDANT WAS NOT CONVICTED, HAS BEEN UNDERMINED BY
NELSON.

1.

Reviewability and Standard of Review.

Defense counsel at both the original sentencing and the resentencing
objected to consideration of the alleged attempted murder on which the jury was
unable to reach a verdict. See CR 112, at 4-5; CR 193. This question of the
constitutionality of a sentence is reviewed de novo. See United States v. Mercado,
474 F.3d 654, 656 (9th Cir. 2007).

2.

While Watts Allowed Consideration of Conduct of Which the

Defendant Has Not Been Convicted, It Has Been Undermined by the Subsequent
Supreme Court Decision in Nelson.

This Court held near the beginning of the sentencing guidelines that conduct
of which a defendant had been acquitted could not be used to enhance the
defendant’s sentence. See United States v. Putra, 78 F.3d 1386 (9th Cir. 1996);
United States v. Watts, 67 F.3d 790 (9th Cir. 1995). The Supreme Court granted
certiorari and reversed those opinions in its Watts opinion. See id., 519 U.S. at
157. It pointed to 18 U.S.C.§ 3661, which speaks generally of placing “[n]o
limitation” on a court’s consideration of “information concerning the background,
-25A058

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 35 of 50

character, and conduct of a person convicted of an offense,” Watts, 519 U.S. at
151 (quoting § 3661); historical practice, Watts, 519 U.S. at 151-52 (citing
Williams v. New York, 337 U.S. 241 (1949)); and the Ninth Circuit’s “erroneous
views of [Supreme Court] double jeopardy jurisprudence,” Watts, 519 U.S. at 154.
Regarding the last point, the Supreme Court explained:
[S]entencing enhancements do not punish a defendant for
crimes of which he was not convicted, but rather increase his
sentence because of the manner in which he committed the
crime of conviction. In Witte [v. United States, 515 U.S. 389
(1995)], we held that a sentencing court could, consistent with
the Double Jeopardy Clause, consider uncharged cocaine
importation in imposing a sentence on marijuana charges that
was within the statutory range, without precluding the
defendant’s subsequent prosecution for the cocaine offense.
We concluded that “consideration of information about the
defendant’s character and conduct at sentencing does not result
in ‘punishment’ for any offense other than the one of which the
defendant was convicted.” Id. at 401. Rather, the defendant is
“punished only for the fact that the present offense was carried
out in a manner that warrants increased punishment . . . .” Id. at
402; (additional citation omitted).
Watts, 519 U.S. at 154-55 (emphasis in original). This Court has fallen into line
and followed Watts in multiple subsequent opinions. See, e.g., United States v.
Barragan, 871 F.3d 689, 716 (9th Cir. 2017), cert. denied, 138 S. Ct. 1572(2018);
United States v. Scott, 642 F.3d 791, 800 (9th Cir. 2011); Mercado, 474 F.3d at
656-57.
Nelson considered a different constitutional protection – the presumption of
innocence – in a different context. The appellants in Nelson were defendants who
initially had been convicted of criminal offenses and sentenced both to prison and
to pay various monetary penalties. See id., 137 S. Ct. at 1253. Some or all of their
convictions were reversed on appeal and, in one instance, the appellant was
acquitted in a new trial, and, in the other instance, the state chose not to retry the
appellant. See id. The state nonetheless refused to return the money the appellants
had paid to satisfy the monetary penalties because a state statute required the
-26A059

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 36 of 50

appellants to affirmatively prove their innocence by clear and convincing
evidence. See id. at 1253-54.
The Supreme Court held this violated both due process and the presumption
of innocence. Regarding the latter, it said:
[O]nce those convictions were erased, the presumption of [the
appellants’] innocence was restored. [A]xiomatic and
elementary, the presumption of innocence lies at the foundation
of our criminal law. Colorado may not retain funds taken from
[the appellants] solely because of their now-invalidated
convictions, for Colorado may not presume a person, adjudged
guilty of no crime, nonetheless guilty enough for monetary
exactions.
Id. at 1255-56 (citations, footnotes, and internal quotation marks omitted)
(emphasis in original).
This reasoning extends to the enhancement of Mr. Moreno’s sentence for an
attempted murder which the jury expressly considered but could not reach a
verdict on and which the government thereafter dismissed. Here, there was not
even an original conviction and restoration of a previously rebutted presumption
of innocence when that original conviction was erased. There was no conviction
at all, so the presumption of innocence was not rebutted even initially. Just as the
appellants in Nelson were not, “adjudged guilty of no crime, nonetheless guilty
enough for monetary exactions,” Mr. Moreno, adjudged guilty of no attempted
murder, cannot be guilty enough for a sentence enhancement.
Watts did reason that “sentencing enhancements do not punish a defendant
for crimes of which he was not convicted, but rather increase his sentence because
of the manner in which he committed the crime of conviction.” Supra p. 26
(quoting Watts, 519 U.S. at 154). This reasoning is a viable argument in response
to assertion of the Double Jeopardy Clause protection against being placed twice
in jeopardy for the same offense. The reasoning does not extend to the right to be
presumed innocent, however, because that right protects a defendant from being
-27A060

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 37 of 50

punished at all until the presumption is rebutted. The presumption of innocence is
violated no matter what offense the punishment is imposed for.

3.

Watts Is Not Controlling Because Watts Considered Only Statutory

Law, Historical Practice, and Double Jeopardy Principles, and Did Not Consider
the Presumption of Innocence.

This Court must consider whether Watts is controlling. On the one hand,
there is the Supreme Court’s admonition – acknowledged by this Court – that, “[i]f
a precedent of th[e Supreme] Court has direct application in a case, yet appears to
rest on reasons rejected in some other line of decisions, the Court of Appeals
should follow the case which directly controls, leaving to this Court the
prerogative of overruling its own decisions.” Rodriguez de Quijas v.
Shearson/American Express, Inc., 490 U.S. 477, 484 (1989); In re Grand Jury
Subpoenas, 908 F.3d 525, 529 (9th Cir. 2018) (quoting Rodriguez de Quijas and
Agostini v. Felton, 521 U.S. 203, 237 (1997)), cert. denied, 205 L. Ed. 2d 195
(2019). On the other hand, there is another principle also repeated by both the
Supreme Court and this Court – that “[q]uestions which merely lurk in the record,
neither brought to the attention of the court nor ruled upon, are not to be
considered as having been so decided as to constitute precedents.” Webster v.
Fall, 266 U.S. 507, 511 (1925). See also United States v. Rivera-Guerrero, 377
F.3d 1064, 1071 (9th Cir. 2004) (quoting Webster). Watts considered only 18
U.S.C. § 3661 and historical practice – both of which must give way to a
constitutional protection like the presumption of innocence – and the Double
Jeopardy Clause – which is a different constitutional protection. Accord Mercado,
474 F.3d at 661 (B. Fletcher, J., dissenting) (quoting explanation in United States
-28A061

Case: 19-10252, 11/27/2019, ID: 11515340, DktEntry: 8, Page 38 of 50

v. Booker, 543 U.S. 220, 240 n.4 (2005), that Watts “presented a very narrow
question regarding the interaction of the guidelines with the Double Jeopardy
Clause, and did not even have the benefit of full briefing or oral argument”).
Watts did not consider the presumption of innocence, so this Court may rely on
Nelson in considering that constitutional protection.7

C.

THERE WAS AN ABUSE OF DISCRETION IN THE DISTRICT

COURT’S APPLICATION OF THE FIREARMS GUIDELINE CROSS
REFERENCE – IN ITS USE OF THE GUIDELINE FOR ATTEMPTED FIRST
DEGREE MURDER RATHER THAN THE GUIDELINE FOR ATTEMPTED
SECOND DEGREE MURDER – BECAUSE THE EVIDENCE WAS
INSUFFICIENT TO SUPPORT A FINDING OF PREMEDITATION AND
THERE IS SOME INDICATION THE DISTRICT COURT APPLIED
INCORRECT LEGAL STANDARDS.

1.

Reviewability and Standard of Review.

Defense counsel argued, as noted above, that there was insufficient
evidence of premeditation even if there was an intent to kill, so the court should
apply the subsection for attempted second degree murder it if applied the
attempted murder guideline. See ER 6-10. As also noted above, the district court
found there was premeditation and applied the attempted first degree murder
7

Other courts of appeals, though only in unpublished opinions, have
rejected the argument that Nelson undermines Watts, but without considering the
distinction between the double jeopardy argument considered in Watts and the
presumption of innocence argument suggested by Nelson. See United States v.
Burg, 764 Fed. Appx. 836, 837 (10th Cir. 2019) (unpublished) (collecting cases).
-29A062

AP P ENDI X7

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 1 of 47

C.A. No. 19-10252
D. Ct. No. CR 14-01568-TUC-CKJ
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JESUS EDER MORENO ORNELAS,
Defendant-Appellant.

ON APPEAL FROM A JUDGMENT OF THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF ARIZONA
-----------------------------------------------------------BRIEF OF APPELLEE
------------------------------------------------------------

MICHAEL BAILEY
United States Attorney
District of Arizona
CHRISTINA M. CABANILLAS
Deputy Appellate Chief

ANGELA W. WOOLRIDGE
Assistant U.S. Attorney
405 West Congress, Suite 4800
Tucson, Arizona 85701
Telephone: (520) 620-7300
Attorneys for Appellee

Date Electronically Filed: February 3, 2020

A063

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 6 of 47

III. STATEMENT OF JURISDICTION
A.

District Court Jurisdiction
The district court had subject matter jurisdiction pursuant to 18 U.S.C. § 3231

because the defendant/appellant, Jesus Eder Moreno Ornelas (“the defendant”), was
charged with federal crimes. (CR 12; ER 472-75.)1
B.

Appellate Court Jurisdiction
This Court has jurisdiction pursuant to 28 U.S.C. § 1291 based on the entry

of the final judgment by the district court on July 16, 2019. (CR 197; ER 96-100.)
C.

Timeliness of Appeal
Following the entry of the judgment on July 16, 2019, the defendant filed a

notice of appeal on July 26, 2019. (CR 199; ER 95.) The notice was timely pursuant
to Fed. R. App. P. 4(b).
D.

Bail Status
The defendant is currently in custody, serving his sentence, and is expected to

be released on August 23, 2052, according to the Bureau of Prisons.

“CR” refers to the Clerk’s Record, followed by the document number(s). “RT”
refers to the Reporter’s Transcript, followed by a date and page number(s). “ER”
refers to the Excerpts of Record, followed by the page number(s). “SER” refers to
the Supplemental Excerpts of Record, followed by the relevant page number(s).
1
1

A064

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 7 of 47

IV. ISSUES PRESENTED
A.

WHETHER REHAIF V. UNITED STATES, 139 S.CT. 2191 (2019),
REQUIRES THE DEFENDANT’S CONVICTIONS FOR FELON IN
POSSESSION OF A FIREARM AND ILLEGAL ALIEN IN POSSESSION
OF A FIREARM BE VACATED WHEN THE DEFENDANT DID NOT
OBJECT AT TRIAL AND CANNOT DEMONSTRATE THAT ANY
ERROR AFFECTED HIS SUBSTANTIAL RIGHTS.

B.

WHETHER THE DISTRICT COURT ABUSED ITS DISCRETION IN
CONSIDERING THE DEFENDANT’S CONDUCT OF ATTEMPTED
MURDER IN SENTENCING THE DEFENDANT FOR HIS OFFENSES OF
CONVICTION.

C.

WHETHER, IN CALUCULATING THE SENTENCING GUIDELINES,
THE DISTRICT COURT ABUSED ITS DISCRETION IN USING THE
CROSS-REFERENCE TO THE GUIDELINE FOR ATTEMPTED FIRST
DEGREE MURDER IN SENTENCING THE DEFENDANT FOR HIS
FIREARM OFFENSES.

2
A065

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 8 of 47

V. STATEMENT OF THE CASE
A.

Nature of the Case; Course of Proceedings
On September 17, 2014, the defendant was charged by Indictment with one

count of assault of a federal officer, one count of attempt to commit murder, one
count of use of a firearm during and in relation to a crime of violence, two counts of
attempted robbery of United States property, one count of possession of a firearm
and ammunition by a convicted felon, one count of possession of a firearm and
ammunition by an illegal alien, and one count of illegal re-entry of a deported alien.
(CR 12; ER 472-75.)
A jury trial commenced on June 22, 2015, and on July 2, 2015, the defendant
was convicted of all charges except Count Two, attempt to commit murder. (CR 81,
102.) The jury was unable to reach a verdict on Count Two. The district court
granted the government’s motion to dismiss that count. (CR 102, 105, 106.) The
defendant was sentenced to a total term of 520 months imprisonment on October 19,
2015. (CR 124; RT 10/19/15 42; ER 78.)
The defendant appealed his convictions, and this Court vacated his
convictions for the two counts of attempted robbery based on its finding that the jury
instruction given by the district court for these counts was erroneous. United States
v. Ornelas, 906 F.3d 1138 (9th Cir. 2018), cert. denied, 139 S.Ct. 2638 (2019). This
Court affirmed the remaining counts of conviction. Id.
3
A066

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 9 of 47

On remand, the government elected not to re-try the defendant for the
attempted robbery counts, and the district court held a resentencing hearing on July
16, 2019. (CR 171, 196.) At the hearing, the court heard testimony from a witness
for the defendant and arguments from the parties. (CR 196; RT 7/16/19 65-91; ER
2-28.) The court then made findings of fact, calculated the applicable advisory
sentencing guideline range, discussed the statutory sentencing factors, and again
sentenced the defendant to 520 months prison. (CR 197; RT 7/16/19 91-98; ER 96100, 28-35.)
B.

Statement of Facts
1.

Defendant’s Crimes

On August 23, 2014, the victim in this case, United States Forest Service
Officer Devin Linde was on duty in uniform on and near the Coronado National
Forest, near Douglas, Arizona. (ER 277, 287; RT 6/22/15 155, 165.) On that day,
as usual while on duty, his official responsibilities included responding to reports
regarding individuals who may have committed criminal offenses on, near, or
impacting National Forest land or Fish and Wildlife land. (ER 281-86; RT 6/22/15
159-64.) Officer Linde’s duties also included ensuring that any individuals requiring
assistance in the area receive the help they need. (ER 283-84; RT 6/22/15 161-62.)
Additionally, consistent with the responsibilities of any law enforcement officer,
Officer Linde’s duties included assisting other law enforcement in the area –most
4
A067

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 10 of 47

notably in this case, Border Patrol – as needed or requested. (ER 285-86; RT 6/22/15
163-64.) As a United States Forest Service officer, Officer Linde is expected by his
agency and his supervisor to comply with requests for assistance from Border Patrol.
(ER 284; RT 6/26/15 162.)
The area of Officer Linde’s responsibility is vast, rugged, and notorious for
criminal activity – primarily illegal drug trafficking and human smuggling. (ER
282-85; RT 6/22/15 160-63.) In connection with his Forest Service duties, Officer
Linde not only routinely encounters individuals dropping off loads of illegal drugs
in the area, but also commonly encounters illegal aliens/border crossers who are
exhausted, dehydrated, and in need of assistance; often, these individuals “give up”
and ask for transportation back to Mexico. (ER 282-84; RT 6/22/15 160-62.) On a
near-daily basis, Officer Linde and other Forest Service officers work closely with
Border Patrol to apprehend and/or assist the individuals they find in the area. (ER
285-86, 291; RT 6/22/15 163-64, 169.)
On August 23, 2014, Officer Linde received a report that three people
appearing to be undocumented aliens, one of whom was possibly in distress, had
been seen on Forest Service land. (ER 288; RT 6/22/15 166.) Shortly thereafter he
received another notification that the group was seen in nearby Leslie Canyon
preserve, which is on Fish and Wildlife land. (ER 289-90; RT 6/22/15 167-68.)
Officer Linde called the Border Patrol Douglas station and relayed the report of three
5
A068

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 11 of 47

possible undocumented aliens, one of whom was injured, and advised he (Officer
Linde) was in the area. (ER 290; RT 6/22/15 168.) Border Patrol asked Officer
Linde if he could assist them, and he said yes. (ER 290, 294; RT 6/22/15 168, 172.)
Not long thereafter, Officer Linde saw two individuals (the defendant, Jesus
Eder Moreno Ornelas, and Aaron Trinidad Abril-Moreno) heading south on Leslie
Canyon Road, which is adjacent to the Coronado National Forest and which he and
other Forest Service officers utilize on a daily basis as part of their jobs to access
Forest land. (ER 293-95; RT 6/22/15 171-73.) One individual appeared to be
injured, and both looked like they had been in the desert for some time. (ER 29596; RT 6/22/15 173-74.)
When Officer Linde pulled over in his marked patrol unit, the individuals
approached Officer Linde, and he asked if they were okay and whether they needed
water. (ER 295; RT 6/22/15 173.) After they declined his offer of assistance and
water, Officer Linde asked them to go to the front of his vehicle. (Id.) Officer Linde
spoke in English, but both individuals appeared to understand him, and Aaron
Trinidad Abril-Moreno (“Abril”) complied. (ER 296-97; RT 6/22/15 174-75.)
However, even after Officer Linde gave repeated commands to go to the front of the
car, the defendant refused and said “no.” (ER 297-98; RT 6/22/15 175-76.)

He

instead appeared to be very agitated and unhappy with the situation, and started

6
A069

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 12 of 47

walking toward Officer Linde with clenched fists and squared-off shoulders. (ER
297; RT 6/22/15 175.)
Noticing the defendant to be agitated and non-compliant, Officer Linde
radioed Border Patrol to report that the defendant was uncooperative, and requested
help. (ER 297-98; RT 6/22/15 175-76.) Shortly thereafter, the defendant came
toward Officer Linde, who at that point pulled his service firearm and again radioed
Border Patrol to report that he was dealing with a combative subject and needed
back-up.

(ER 298-99; RT 6/22/15 176-77.)

Officer Linde then ordered the

defendant and Abril to the ground for safety purposes. (ER 299; RT 6/22/15 177.)
Abril complied immediately. (Id.) The defendant did not comply, and told Officer
Linde “no.” (ER 299; RT 6/22/15 177.) The defendant continued to appear agitated
and angry, with clenched fists and squared shoulders. (ER 315; RT 6/22/15 193.)
Officer Linde walked toward the defendant and told the defendant to put his hands
on his head. (ER 180; RT 6/22/15 178.) The defendant began to comply, so Officer
Linde holstered his firearm to handcuff the defendant. (ER 300, 315; RT 6/22/15
178, 193.) As Officer Linde was placing the first cuff on one of the defendant’s
wrists, however, the defendant pulled away. (ER 315; RT 6/22/15 193.)
Officer Linde next recalled being face to face with the defendant and
struggling. (ER 315-16; RT 6/22/15 193-94.) The defendant was reaching for
Officer Linde’s pistol, which was in its holster, and Officer Linde put his hands over
7
A070

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 13 of 47

the holster to prevent the defendant from grabbing the pistol. (ER 316; RT 6/22/15
194.) While Officer Linde was trying to prevent the defendant from taking his pistol,
the defendant threw him to the ground. (ER 316-17; RT 6/22/15 194-95.)
Officer Linde and the defendant rolled on the ground, and when they stopped
the defendant was on top of him, violently punching him in the face. (ER 317; RT
6/22/15 195.) Officer Linde tried to stop the defendant but could not; the defendant
was fast and stronger than Officer Linde. (ER 317-18; RT 6/22/15 195-96.) While
the defendant was beating him, Officer Linde began to lose consciousness. (ER 318;
RT 6/22/15 196.) He felt the sensation of his pistol being pulled out of his holster,
and tried again to retain it with his hands but was unsuccessful. (Id.)
As the defendant was pulling Officer Linde’s pistol out of the holster, Officer
Linde heard two shots fired and thought he was shot in the leg. (ER 318-19; RT
6/22/15 196-97.) Officer Linde believed he was going to die and began frantically
flailing his arms in attempt to find his pistol. (ER 319; RT 6/22/15 197.) Officer
Linde felt the pistol being pushed into his chest, and saw the defendant holding the
pistol and pointing it down toward his (Officer Linde’s) chest and head. (ER 31920; RT 6/22/15 197-98.) Officer Linde pushed the defendant’s hand to the side,
deflecting the barrel of the pistol just as the defendant fired another shot at him. (ER
320; RT 6/22/15 198.) Officer Linde heard the shot just to the left of his head. (ER
320-01; RT 6/22/15 198-99.)
8
A071

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 14 of 47

Officer Linde continued to struggle for his life, and the defendant continued
to try to point the pistol at Officer Linde’s chest. (ER 321; RT 6/22/15 199.) Officer
Linde grabbed the defendant’s wrist, and the defendant tried to get away from
Officer Linde. (Id.) Fearing that the defendant would kill him, Officer Linde
attempted to put the defendant in a “modified triangle” hold with his legs around the
defendant’s neck. (ER 322; RT 6/22/15 200.) The defendant fired several more
shots until the firearm malfunctioned and stopped firing. (ER 322-03, 226; RT
6/22/15 200-01; RT 6/25/15 10.) At that point the defendant, with Officer Linde’s
legs still around him, dropped the firearm next to Officer Linde. (ER 323; RT
6/22/15 201.)
Officer Linde recovered his firearm and tried to fire it, but it had jammed. (ER
324; RT 6/22/15 202.) He distanced himself from the defendant, cleared his firearm,
and reloaded his spare magazine. (Id.) At the same time the defendant ran to Officer
Linde’s patrol vehicle and got into the front seat in an attempt to escape. (ER 325,
327; RT 6/22/15 203, 205.) However, the defendant was unable to get away due to
the operation of a toggle switch that shuts down the vehicle if the brake is pressed.
(ER 328; RT 6/22/15 206.)

Officer Linde approached the vehicle, pointed his

firearm at the defendant, and again called the Douglas Border Patrol Station for help.
(ER 329; RT 6/22/15 207.) Officer Linde pulled the defendant out of his vehicle,

9
A072

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 15 of 47

put him on the ground, and stood with his pistol pointed at the defendant until other
law enforcement arrived to help him. (ER 351; RT 6/25/15 15.)
Border Patrol Agent Rashon McCall received Officer Linde’s initial call for
Border Patrol assistance, and was the first law enforcement officer to respond. (SER
5-7, RT 6/25/15 136-38.) Agent McCall also heard Officer Linde’s subsequent calls
reporting that the defendant was being combative and uncooperative, and recalled
that Officer Linde seemed to be in distress during these subsequent calls. (SER 8-9,
RT 6/25/15 143-44.) Concerned for Officer Linde’s safety, Agent McCall turned
on his emergency lights of his patrol vehicle and accelerated to get to Officer Linde
as soon as possible. (SER 10, RT 6/25/15 145.) While he was en route to assist
Officer Linde, Agent McCall heard Officer Linde report “shots fired.” (SER 11, RT
6/25/15 146.)
When he arrived at the scene, Agent McCall saw Officer Linde standing over
the defendant, who was handcuffed on the ground. (SER 12, RT 6/25/15 151.)
Officer Linde immediately asked Agent McCall to check if he had been shot, and
Agent McCall verified that Officer Linde had not been shot. (SER 13, RT 6/25/15
153.) Agent McCall did observe that Officer Linde’s uniform was ripped, dirty, and
bloody, and that Officer Linde was perspiring and out of breath, and had some
lacerations on his hands and face. (SER 13-14, RT 6/25/15 153-54.) Agent McCall
observed a firearm magazine on the ground a few feet from Officer Linde’s vehicle,
10
A073

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 16 of 47

and also noticed that the dirt around the vehicle was disturbed. (SER 14, RT 6/25/15
154.) Officer McCall recalled that the defendant appeared calm, said he was thirsty
and asked where his cousin was, but did not say anything else or express any other
concerns. (SER 15, RT 6/25/15 156.)
Cochise County Sheriff’s Department Deputy John Monroe also responded to
the scene and assisted with the investigation. (SER 16-18, RT 6/25/15 186-88.)
Deputy Monroe took photographs of the scene and recovered several items of
evidence, including five spent shell casings and one live round of ammunition. (SER
19, RT 6/25/15 201.) The shell casings were found on the ground in a linear fashion
near Officer Linde’s vehicle, in the area where the dirt had been disturbed. (SER
20-22, RT 6/25/15 203-05.)
The defendant was arrested and interviewed that evening. In a recorded
interview, he admitted Officer Linde had told him numerous times to stop and get
down to the ground, and that he understood what the officer was saying. (CR 165
105-06; ER 208-09.) The defendant stated that from the beginning he knew he had
to listen to the officer. (CR 165 135; ER 238.) The defendant admitted that instead
of complying, he tried to take Officer Linde’s gun away from him. (CR 165 156;
ER 259.) He stated that he pushed Officer Linde to the ground with all the force he
had. (CR 165 116; ER 219.) The defendant ultimately admitted he fired as many as
six or seven shots until the firearm was empty. (CR 165 152-54; ER 255-57.)
11
A074

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 17 of 47

The defendant described his actions as “attempted homicide” and stated, “I
knew beforehand it will be attempted homicide” when describing his actions against
Officer Linde. (CR 165 145-46; ER 248-49.) The defendant lamented that even
though he could have complied and served just a few months in prison, he wasn’t
even willing to do that much time and instead “did all the stupidities I did and
shouldn’t have.” (CR 165 150-51; ER 253-54.)
During the interview, the defendant also stated that when he crossed into the
United States from Mexico, he used a ladder to jump over the border at night. (CR
165 91-93; ER 194-96.) He described walking in the desert and avoid Border Patrol
agents and checkpoints, and expressed fear of being caught by Border Patrol and
“get[ting] a lot of time.” (CR 165 95-98; ER 198-201.) During his initial encounter
with Officer Linde, the defendant became concerned because he believed the officer
had called Border Patrol to come get him. (CR 165 100-01; ER 203-04.) The
defendant also described that when he was refusing to comply with Officer Linde,
he challenged the officer’s authority to apprehend him by saying, “You no Border
Patrol” and “Me, Mexico!” (CR 165 106; ER 209.)
Aaron Trinidad Abril-Moreno gave a videotaped deposition in which he
described the events he witnessed. He stated that the defendant immediately became
combative with Officer Linde and refused to cooperate. (CR 165 44; ER 147.) He
observed the defendant hit Officer Linde when Officer Linde tried to handcuff him,
12
A075

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 18 of 47

and punch Officer Linde repeatedly in the face and elsewhere with his fist. (CR 165
47-49; ER 150-52.) While Abril did not see who fired the shots, he described hearing
two distinct occasions of gunfire. First, Abril heard one shot and turned to see
Officer Linde on the ground with the defendant on top of him, continuing to hit him
while Officer Linde yelled, “no, no.” (CR 165 50; ER 153.) Abril then took off
running, and after he ran off into nearby mountains he heard a second and third shot
while Officer Linde to kept screaming, “no, no.” (CR 165 50-51, 59-60; ER 15354, 162-63.)
2.

Trial

Trial commenced on June 22, 2015. (CR 81.) The government presented the
testimony of Officer Linde, Rashon McCall, John Monroe, Nelson Moreno, Zachary
Weller, Heather Cox-McClain, Cheri Bowen, Bryan Bowen, Roger Clark, and the
videotaped deposition testimony of Aaron Trinidad Abril-Moreno. (SER 2, 4, 24,
35, 37.) The government also played the video recording of the defendant’s
statement. (CR 165; ER 104-07.)
Additionally, the government introduced a stipulation which had been entered
into by the parties with regard to elements of the counts of illegal reentry of a
deported alien, felon in possession of a firearm, and alien in possession of a firearm.
((RT 6/22/15 152-54; ER 466-67, 469-71.) The stipulation stated:

13
A076

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 19 of 47

1. The defendant, Jesus Eder Juanni Moreno-Ornelas, was born in Mexico, and
is not, nor has he ever been, a national or naturalized citizen of the United
States.
2. The defendant, Jesus Eder Juanni Moreno-Ornelas, was deported and
removed from the United States on May 18, 2014.
3. The defendant, Jesus Eder Juanni Moreno-Ornelas, admits that he has not at
any time obtained the consent of the Attorney General or the Secretary of the
Department of Homeland Security to reapply for admission to the United
States.
4. The defendant, Jesus Eder Juanni Moreno-Ornelas, was illegally or
unlawfully present in the United States on August 23, 2014.
5. The defendant, Jesus Eder Juanni Moreno-Ornelas, had been previously
convicted of a crime punishable by imprisonment for a term exceeding one
year.
(Id.)
On June 30, 2015, after the government rested, the defendant moved for a
judgment of acquittal on every count. (RT 6/30/15 54, 56; ER 86.) The district court
denied the motion for judgment of acquittal, finding that the government presented
sufficient evidence of all the elements of each crime for the jury to make its decision.
(RT 6/30/15 64; ER 94.)
3.

Verdicts

Following trial, on July 2, 2015, the defendant was convicted of all counts
except the attempt to commit murder count, which the government dismissed. (CR
102, 105, 106.)

14
A077

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 20 of 47

4.

Sentencing

On October 19, 2015, the district court sentenced the defendant to a total term
of 520 months imprisonment on October 19, 2015. (CR 124; ER 347-49.)
5.

First Appeal

The defendant appealed his convictions, and this Court vacated his
convictions for the two counts of attempted robbery based on its finding that the jury
instruction given by the district court for these counts was erroneous, but rejected
the other arguments raised by the defendant and affirmed the remaining counts of
conviction. Ornelas, 906 F.3d 1138.
6.

Resentencing

On remand, the government elected not to re-try the defendant for the
attempted robbery counts, and the district court dismissed those counts without
prejudice. (CR 171.) The district court discussed the parameters of the resentencing
with counsel for the parties, and allowed the parties for file written memoranda
regarding the scope of resentencing. (CR 178.) The court held a resentencing
hearing on July 16, 2019, and permitted the defendant to call Weaver Barkman as a
witness at the hearing. (CR 196.) Mr. Barkman testified that it was his opinion the
defendant discharged the firearm accidentally. (RT 7/16/19 75; ER 12.)
After hearing testimony of Mr. Barkman, the district court addressed the
advisory sentencing guidelines. (RT 7/16/19 66; ER 3.) It heard argument from the
15
A078

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 21 of 47

parties regarding the guidelines. (RT 7/16/19 68-78; ER 5-15.) The defendant
objected to the base offense level of 33 and the enhancement for obstruction of
justice as calculated in the presentence report. (RT 7/16/19 67; ER 4.) The
government concurred with the guidelines as calculated in the presentence report.
(RT 7/16/19 78; ER 15.) The court agreed with the government and the probation
department, and overruled the defendant’s objections. (Id.)
In finding the correct base offense level to be 33, the district court found that
clear and convincing evidence proved that the defendant was attempting to commit
the crime of murder. (Id.) Specifically, the court found the testimony of Officer
Linde to be “credible, truthful, reliable” and “very believable.” (RT 7/16/19 78-80;
ER 15-17.) It also found that Mr. Barkman’s opinions were “not based on a sound
review of all the evidence” or “an accurate analysis of the nature of the case.” (RT
7/16/19 79-80; ER 16-17.) The court noted that Mr. Barkman did not conduct any
tests probative to the case, and that the most important evidence was the eyewitness
account of what happened. (RT 7/16/19 80; ER 17.) The court concluded that
Officer Linde’s testimony supported the finding that the defendant was attempting
to kill him with a firearm. (Id.)
The district court calculated the applicable advisory sentencing guideline
range and adopted the calculations in the presentence report, finding the base offense
level to be 33, with a six-level enhancement for official victim and a two-level
16
A079

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 22 of 47

enhancement for obstruction of justice, for a total offense level of 41. (RT 7/16/19
80-81; ER 17-18; PSR ¶¶ 19-37.) With the defendant’s Criminal History Category
of V, this resulted in an advisory guideline range of 360 months to life imprisonment
plus a mandatory consecutive 120 months imprisonment for Count Three. (RT
7/16/19 81; ER 18; PSR ¶ 63.)
Finally, the district court heard allocution from counsel for the defendant, the
defendant, and counsel for the government with regard to the appropriate sentence.
(RT 7/16/19 85-91; ER 22-28.) The court then discussed the statutory sentencing
factors, the facts of the offense, and the individual history characteristics of the
defendant, and again sentenced the defendant to 520 months prison. (RT 7/16/19
91-95; ER 28-32.)

17
A080

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 23 of 47

VI. SUMMARY OF ARGUMENTS
A.

In Rehaif v. United States, 139 S.Ct. 2191 (2019), decided after the trial

in this case, the Supreme Court held that in a prosecution pursuant to 18 U.S.C.
§922(g), the defendant must have knowledge of the circumstance that causes him to
be prohibited from possessing firearms and ammunition. Rehaif does not require
that the defendant’s convictions for possession of a firearm and ammunition by a
convicted felon and possession of a firearm and ammunition by an illegal alien be
vacated because the defendant cannot meet the requirements for establishing plain
error. Sufficient and uncontroverted evidence was introduced at trial to prove that
the defendant knew both that he was a convicted felon and an alien illegally in the
United States at the time he possessed a firearm in this case. Any error in not
instructing the jury that the defendant must have knowledge of his prohibiting
circumstance was harmless.
B.

The district court did not abuse its discretion in considering the

defendant’s conduct of attempting to murder the victim in sentencing the defendant
for his offenses of conviction. It is clearly established that a district court may
consider all relevant conduct of the defendant at sentencing, including conduct of
which a defendant has been convicted at trial. Here, sufficient evidence established
that the defendant attempted to murder the victim.

18
A081

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 24 of 47

C.

The district court did not abuse its discretion in using the cross-

reference to the sentencing guideline for attempted first degree murder in sentencing
the defendant for his firearm offenses. The evidence proved that the defendant
intended to kill the victim, was fully conscious of his intent, and considered the
killing.

19
A082

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 25 of 47

VII. ARGUMENTS
A.

REVERSAL OF THE DEFENDANT’S FIREARM CONVICTIONS IS
NOT REQUIRED.
1.

Standard of Review

This Court reviews a district court’s denial of a motion for acquittal based on
sufficiency of the evidence de novo. United States v. Stewart, 420 F.3d 1007, 1014
(9th Cir. 2005). In evaluating a sufficiency of the evidence claim, the Court uses a
two-step inquiry. “First, a reviewing court must consider the evidence presented at
trial in the light most favorable to the prosecution.” United State v. Nevils, 598 F.3d
1158, 1164 (9th Cir. 2010) (en banc) (citing Jackson v. Virginia, 443 U.S. 307, 319
(1979)). “Second, after viewing the evidence in the light most favorable to the
prosecution, the reviewing court must determine whether this evidence, so viewed,
is adequate to allow ‘any rational trier of fact [to find] the essential elements of the
crime beyond a reasonable doubt.’”

Id. (quoting Jackson, 443 U.S. at 319)

(emphasis in original).
Where a defendant fails to object to a particular jury instruction, the
instruction is reviewed for plain error. United States v. Pelisaman, 641 F.3d 399,
404 (9th Cir. 2011); United States v. Chi Mak, 683 F.3d 1126, 1133 (9th Cir. 2012).
The plain error review applies to unpreserved errors even when the error arises from
intervening authority that was unavailable during the foregoing proceedings. See
Henderson v. United States, 568 U.S. 266, 272 (2011).
20
A083

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 26 of 47

To establish plain error, a defendant must meet four prongs: first, there was a
deviation from a legal rule that was not affirmatively waived; second, the error was
clear or obvious rather than subject to reasonable dispute; third the error must have
affected his or her substantial rights – that is, affected the outcome of the district
court proceedings; and the error seriously affected the fairness, integrity, or pubic
reputation of judicial proceedings. Puckett v. United States, 556 U.S. 129, 135
(2009).
Where a defendant fails to object to the sufficiency of an indictment, the
indictment is also reviewed for plain error. United States v. Arnt, 474 F.3d 1159,
1162 (9th Cir. 2007); Pelisaman, 641 F.3d at 404.
2.

Argument
a. Sufficiency Of The Evidence

At trial, the defendant moved for a judgment of acquittal on every count. (RT
6/30/15 54, 56; ER 86.) The district court denied the motion for judgment of
acquittal, finding that the government presented sufficient evidence of all the
elements of each crime for the jury to make its decision. (RT 6/30/15 64; ER 94.)
The defendant argues that, in light of the subsequent Supreme Court decision
in Rehaif, the evidence presented at trial was insufficient to support his convictions
for possession of a firearm and ammunition by a convicted felon and possession of
a firearm and ammunition by an illegal alien. (Op. Br. at 18.) The defendant is
21
A084

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 27 of 47

incorrect. Sufficient and uncontroverted evidence was presented at trial to prove
that the defendant knew both that he had been convicted of a crime punishable by a
term of imprisonment exceeding one year, and that he was an alien unlawfully
present in the United States, at the time he possessed the firearm and ammunition in
this case.
i. Possession Of Firearm And Ammunition By Convicted Felon
The stipulation entered into by the parties stated: “The defendant [] had been
previously convicted of a crime punishable by imprisonment for a term exceeding
one year.” (RT 6/22/15 153; ER 466-67, 470.) The district court instructed the jury
that it was to consider this fact as true, and the stipulation provided that this fact was
uncontested and must be considered to have been proven beyond a reasonable doubt.
(RT 6/22/15 152-54; ER 467, 469-71.) While the stipulation did not state that the
defendant knew he had been previously convicted of a crime punishable by
imprisonment for a term exceeding one year, such knowledge can reasonably be
inferred from the fact of such a conviction. It is highly unlikely for an individual to
be convicted of a felony offense without having any knowledge it.
Viewing the evidence in the light most favorable to the government, a rational
jury could find that an individual who has in fact been convicted of a crime
punishable by imprisonment for a term exceeding one year knew of the fact of his

22
A085

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 28 of 47

conviction. The district court did not err in denying the defendant’s motion for
judgment of acquittal on this count.
This Court recently rejected the defendant’s argument under the same
circumstances in United States v. Benamor, 937 F.3d 1182 (9th Cir. 2019). In
Benamor, this Court found that the parties’ stipulation at trial that, on the date the
defendant was found in possession of a firearm, he had previously been convicted
of a crime punishable by imprisonment for a term exceeding one year, relieved the
government of its burden to prove the defendant’s felon status. Id. at 1188. This
Court also found that any insufficiency in the stipulation in light of the Rehaif
decision was not plain error because there was no probability that but for the error
the outcome of the trial would have been different. Id. at 1188-89.
Specifically, this Court found the fact that the defendant had actually been
sentenced to more than one year for some of his convictions sufficient to prove
beyond a reasonable doubt he had the knowledge required by Rehaif, even though
no evidence of these sentences was presented at trial in light of the stipulation. Id.
at 1185-86, 1188-89. This Court appears to have recognized that, had Rehaif been
decided before the defendant’s trial, the government could have presented irrefutable
proof of the requisite knowledge and the outcome of the trial would have been the
same. Id. at 1188-89.

23
A086

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 29 of 47

Here, the defendant also served a term of imprisonment exceeding one year
before possessing a firearm and ammunition in the instant case; he was sentenced to
2.5 years custody for his marijuana trafficking conviction in 2011. (PSR ¶ 40.) Just
as in Benamor, any error with regard to the knowledge required by Rehaif “did not
affect Defendant’s substantial rights or the fairness, integrity, or public reputation of
the trial.” 937 F.3d at 1189.
ii. Possession Of Firearm And Ammunition By Illegal Alien
The stipulation entered into by the parties stated that the defendant was born
in Mexico and has never been a citizen of the United States. (RT 6/22/15 153; ER
466, 470.) It also stated that the defendant had been deported from the United States
on May 18, 2014. (Id.) It further stated that the defendant admits he has never
obtained consent to reapply for admission to the United States, and that he was
illegally present in the United States on August 23, 2014. (RT 6/22/15 153; ER 467,
470.) The district court instructed the jury that it was to consider this fact as true,
and the stipulation provided that this fact was uncontested and must be considered
to have been proven beyond a reasonable doubt. (RT 6/22/15 152-54; ER 467, 46971.) These facts alone are sufficient to support the defendant’s conviction for
possession of a firearm and ammunition by an illegal alien.
While the stipulation did not state that the defendant knew he was an alien
illegally present in the United States, such knowledge is readily inferred from the
24
A087

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 30 of 47

facts that the defendant was born in Mexico, was never a citizen of the United States,
was deported just three months before his offenses in this case, never obtained
consent to reapply for admission, and was illegally present in the United States on
the date of his offenses.
Additionally, the defendant’s statements indicate he knew he was illegally
present in the United States at the time of his offenses. During his interview, the
defendant stated that he crossed into the United States from Mexico using a ladder
to jump over the border at night. (CR 165 91-93; ER 194-96.) He walked in the
desert to avoid Border Patrol agents and checkpoints, and expressed fear of being
caught by Border Patrol and “get[ting] a lot of time.” (CR 165 95-98; ER 198-201.)
The defendant became concerned because he believed the Officer Linde had called
Border Patrol to come get him. (CR 165 100-01; ER 203-04.)
Finally, the defendant’s actions corroborate his statements and the stipulated
facts regarding the defendant’s illegal status. The extreme measures the defendant
took in attempt to avoid apprehension by law enforcement are consistent with his
statements that he knew he faced punishment for being unlawfully present in the
United States. The evidence of the defendant’s knowledge of his illegal alien status
was overwhelming and uncontroverted. Viewing the evidence in the light most
favorable to the government, a rational jury could certainly find this element proven

25
A088

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 31 of 47

beyond a reasonable doubt. The district court did not err in denying the defendant’s
motion for judgment of acquittal on this count.
b. Indictment
The defendant concedes he did not raise an objection to the sufficiency of the
indictment. (Op. Br. at 18.) He now argues that the indictment in this case was
deficient for its failure to allege the knowledge element subsequently required
pursuant to Rehaif. (Op. Br. at 23.) The defendant is incorrect. While the indictment
in this case did not specifically allege the defendant knew that he had been convicted
of an crime punishable by a term of imprisonment exceeding one year or that he was
illegally present in the United States at the time be possessed the firearm and
ammunition, the defendant fails to show he suffered any prejudice as a result of this
omission.
When the sufficiency of the indictment is challenged after trial, it is only
required that the necessary facts appear in any form or by fair construction can be
found within the terms of the indictment. United States v. Read, 918 F.3d 712, 718
(9th Cir. 2019). In Read, 918 F.3d at 719, the indictment’s express reference to 18
U.S.C. § 113(a) put the defendant on notice of the jurisdictional element. See also
United States v. Arnt, 474 F.3d 1159, 1162 (9th Cir. 2007) (counsel “had notice” of
the element “from the statute itself, specifically cited in the indictment[ ]”); United
States v. James, 980 F.2d 1314, 1317-18 (9th Cir. 1992) (indictment alleging a rape
26
A089

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 32 of 47

on an Indian Reservation which did not allege that defendant was an Indian was
sufficient when challenged after trial because “the necessary elements appear in the
indictment by reference to the relevant statutes”).
The defendant does not (and cannot logically) argue that his approach to the
case was influenced by any deficiency in the indictment. Nor does the defendant
show he was prejudiced in any other way. To the extent that the defendant may
claim he was somehow prejudiced at trial by the indictment’s omission of the postRehaif knowledge element, this claim fails in light of the evidence and the
defendant’s strategy at trial. The defendant stipulated to each and every element of
both the possession of a firearm and ammunition by a convicted felon and possession
of a firearm and ammunition by an illegal alien counts, except for the element that
he knowingly possessed a firearm. (RT 6/22/15 152-54; ER 466-71.) As discussed,
uncontroverted evidence at trial proved that the defendant knew that he was a
convicted felon and illegally present in the United States. It is inconceivable that
had the indictment alleged such knowledge, the result in this case would have been
different.
c. Jury Instructions
The district court gave this Court’s model jury instructions for the offenses of
possession of a firearm and ammunition by a convicted felon and possession of a
firearm and ammunition by an illegal alien. (CR 90; ER 101-03); Model Crim. Jury
27
A090

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 33 of 47

Instr. 9th Cir. 8.65 (2010). The defendant concedes he did not object to these
instructions. (Op Br. at 18.) The defendant now argues that the district court plainly
erred by not instructing the jury that the government must prove the defendant knew
he had been convicted of a crime punishable by a term of imprisonment exceeding
one year, and was an alien illegally present in the United States, at the time he
possessed the firearm and ammunition. (Op. Br. at 23.)
No plain error occurred with regard to these jury instructions. The defendant
was not prejudiced by the omission of this post-Rehaif knowledge requirement from
the jury instructions in this case. As discussed, the evidence of his prohibited status
was significant and uncontroverted. The stipulation entered into by the parties, the
defendant’s extreme actions in attempting to avoid apprehension, and the
defendant’s own statements conclusively established that the defendant knew that
he was both a convicted felon and illegally present in the United States. There is no
reasonable probability that any error in the jury instructions affected the jury’s
verdict.
As this Court found under the same circumstances in Benamor, “any error in
not instructing the jury to make such a finding [of the knowledge required by Rehaif]
did not affect Defendant’s substantial rights or the fairness, integrity, or public
reputation of the trial.” 937 F.3d at 1189. Here, just as in Benamor, the parties’
stipulation relieved the government of its burden to prove the defendant’s prohibited
28
A091

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 34 of 47

status. Id. at 1188. And even in light of Rehaif, where the government could have
easily proven the defendant’s knowledge of such status, any deficiency in the jury
instructions did not prejudice the defendant. See id. at 1188-89.
Finally, with regard to the alien in possession charge, any error for failure to
instruct the jury on the knowledge element subsequently required by Rehaif was
harmless in light of the evidence. Even if the district court had given the instruction,
substantial and uncontroverted evidence – including the stipulation and the
defendant’s statement – was presented at trial to prove the defendant knew he was
illegally present in the United States. There is thus no substantial likelihood that if
the jury was given an instruction containing the post-Rehaif knowledge element, its
verdict on the alien in possession count would have been different.
B.

THE DISTRICT COURT DID NOT ABUSE ITS DISCRETION IN
CONSIDERING THE DEFENDANT’S CONDUCT OF ATTEMPTED
MURDER IN SENTENCING THE DEFENDANT.
1.

Standard of Review

This Court reviews a district court’s application of the sentencing guidelines
to the facts for abuse of discretion, and its factual findings for clear error. United
States v. Crowe, 563 F.3d 969, 977 (9th Cir. 2009).
2.

Argument

The defendant argues that the district court erred in considering at sentencing
his attempt to murder the victim because the jury was unable to reach a verdict as to
29
A092

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 35 of 47

the count of attempted murder. (Op. Br. at 25.) However, the court is not bound at
sentencing by the jury’s verdict and may consider conduct for which the defendant
has been acquitted in arriving at an appropriate sentence. United States v. Watts,
519 U.S. 148, 153-54 (1997); United States v. Mercado, 474 F.3d 654, 656-58 (9th
Cir. 2007).
Recognizing this clearly established sentencing tenet, the defendant conflates
the matter with a wholly separate and distinguishable context in contending that the
presumption of innocence should prevent a district court from considering conduct
for which the defendant has not been convicted at trial. (Op. Br. at 26-27.) The
defendant relies on Nelson v. Colorado, 137 S.Ct. 1249 (2017) (Op. Br. at 26-27,
29), wherein the defendants were convicted of crimes that required payment of a fine
upon sentencing, their convictions were subsequently overturned and the defendants
were either acquitted at a second trial or not retried, and the state refused to return
the fines paid by the defendants. Id. at 1253. The Supreme Court found that the
state “may not retain funds taken from [the defendants] solely because of their nowinvalidated convictions,” and stressed the fact that the defendants were “adjudged
guilty of no crime.” Id. at 1255-56 (emphasis added).
Unlike in Nelson, the defendant here was convicted of several crimes and was
sentenced pursuant to the sentencing guidelines for his offenses of conviction,
consistent with principles of statutory authority and the case law of both the Supreme
30
A093

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 36 of 47

Court and this Court. The defendant’s contention that the Supreme Court did not
consider the presumption of innocence when holding in Watts that a district court
may considered acquitted conduct (Op. Br. at 28-29) misses the mark. To accept
this contention, this Court would have to conclude that the Supreme Court ignored
one of the most fundamental concepts of criminal law and created case law in direct
violation of this principle.
Supreme Court decisions remain binding precedent until the Supreme Court
sees fit to reconsider them, regardless of whether subsequent cases have raised
doubts about their continuing vitality. Bosse v. Oklahoma, 137 S. Ct. 1, 2 (2016).
Moreover, A subsequent panel must follow a prior panel opinion except when a
decision of “the relevant court of last resort [has] undercut the theory or reasoning
underlying the prior circuit precedent in such a way that the cases are clearly
irreconcilable.” Miller v. Gammie, 335 F.3d 889, 900 (9th Cir. 2003) (en banc).
Contrary to the defendant’s contention, Nelson in no way undermines the holding of
Watts.
In fact, following the Supreme Court decision in Nelson, this Court continues
to apply the still-controlling precedent set forth in Watts that a district court may
consider conduct underlying an acquitted charge at sentencing. See, e.g., United
States v. Krum, 698 Fed.Appx. 524 (9th Cir. 2017) (unpublished). Other circuits
have joined this Court in adhering to Watts following the Nelson decision. See, e.g,
31
A094

Case: 19-10252, 02/03/2020, ID: 11582672, DktEntry: 14, Page 37 of 47

United States v. Ruelas-Carbajal, 933 F.3d 928, 930 (8th Cir. 2019); United States
v. Fields, 932 F.3d 316, 320-21 (5th Cir. 2019); United States v. Wandahsega, 924
F.3d 868, 887-888 (6th Cir. 2019). The defendant’s reliance on Nelson is simply
unfounded.
C.

THE DISTRICT COURT DID NOT ABUSE ITS DISCRETION IN
USING THE CROSS-REFERENCE TO THE GUIDELINE FOR
ATTEMPTED FIRST DEGREE MURDER IN SENTENCING THE
DEFENDANT FOR HIS FIREARM OFFENSES.
1.

Standard of Review

This Court reviews a district court’s application of the sentencing guidelines
to the facts for abuse of discretion, and its factual findings for clear error. Crowe,
563 F.3d at 977. “[W]here there are two permissible views of the evidence, the fact
finder’s choice between them cannot be clearly erroneous.” United States v. Awad,
371 F.3d 583, 591 (9th Cir. 2004), quoting Hernandez v. New York, 500 U.S. 352,
369 (1991).
2.

Argument
a. Evidence of Premeditation

The district court applied U.S.S.G. § 2A2.1(a)(1), the sentencing guideline for
attempted first-degree murder, pursuant the cross-reference in § 2K2.1, the guideline
for the defendant’s firearm and ammunition offenses. (RT 7/16/19 66, 80; ER 3, 17;
PSR ¶ 19.) The cross-reference provides:

32
A095

AP P ENDI X8

Case: 19-10252, 03/10/2020, ID: 11625474, DktEntry: 26, Page 1 of 13

CA NO. 19-10252
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JESUS EDER MORENO ORNELAS,
Defendant-Appellant.

)
)
)
)
)
)
)
)
)
)

(D.Ct. 4:14-cr-01568-CKJ)

APPELLANT'S REPLY BRIEF

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
HONORABLE CINDY K. JORGENSON
United States District Judge

CARLTON F. GUNN
Attorney at Law
65 North Raymond Ave., Suite 320
Pasadena, California 91103
Telephone (626) 667-9580
Attorney for Defendant-Appellant

A096

Case: 19-10252, 03/10/2020, ID: 11625474, DktEntry: 26, Page 4 of 13

CA NO. 19-10252
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
JESUS EDER MORENO ORNELAS,
Defendant-Appellant.

(D.Ct. 4:14-cr-01568-CKJ)

APPELLANT'S REPLY BRIEF

I.
ARGUMENT

A.

THE FELON IN POSSESSION OF A FIREARM CONVICTION AND

ILLEGAL ALIEN IN POSSESSION OF A FIREARM CONVICTION MUST BE
VACATED.

1.

The Convictions Must Be Vacated Because the Evidence Was

Insufficient to Support Them.

a.

The felon in possession conviction.

The government makes two arguments about why the evidence is sufficient
-1A097

Case: 19-10252, 03/10/2020, ID: 11625474, DktEntry: 26, Page 5 of 13

to support the felon in possession conviction. First, it argues knowledge of felon
status can be reasonably inferred from the fact of conviction. Second, it argues
information in the presentence report establishes the required knowledge, because
it shows Mr. Moreno was sentenced to 2.5 years of custody for his felony
conviction.
Both these arguments fail. That knowledge cannot be inferred from the fact
of conviction was recognized in the Supreme Court case establishing the
knowledge requirement – Rehaif v. United States, 139 S. Ct. 2191 (2019). Rehaif
recognized there easily could be “a person who was convicted of a prior crime but
sentenced only to probation, who does not know that the crime is ‘punishable by
imprisonment for a term exceeding one year.’” Id. at 2198 (quoting 18 U.S.C. §
922(g)(1), and adding emphasis). There is also the Ninth Circuit opinion in
United States v. Benamor, 937 F.3d 1182 (9th Cir. 2019), cert. denied, 205 L. Ed.
2d 502 (2020), which “assum[ed] . . . that the stipulation [to felon status] does not
end the discussion as to Defendant’s knowledge of his status as a felon.” Id. at
1188 (emphasis in original).
The argument that the information in the presentence report establishes the
required knowledge also fails – for two reasons. First, a court cannot look to
sentencing evidence in judging the sufficiency of evidence to convict. As stated in
the case of United States v. Nevils, 598 F.3d 1158 (9th Cir. 2010) (en banc), which
the government itself cites, see Govt. Brief, at 20, a court reviewing the
sufficiency of evidence to convict “must consider the evidence presented at trial.”
Id. at 1164 (emphasis added). Benamor did rely on the number of the defendant’s
prior convictions and the time he had served in prison on those convictions, but
did not indicate that evidence was not trial evidence. See id. at 1189. If the
evidence had been sentencing evidence, its consideration would have conflicted
-2A098

Case: 19-10252, 03/10/2020, ID: 11625474, DktEntry: 26, Page 6 of 13

with the test set forth in the Court’s en banc Nevils opinion.
Second, even if sentencing evidence could be considered, the sentencing
evidence in the present case is far more ambiguous than the evidence in Benamor.
The presentence report does indicate that Mr. Moreno was sentenced to more than
a year in prison, but it does not indicate he served more than a year in prison.
Compare Benamor, 937 F.3d at 1189 (noting defendant spent more than nine years
in prison on his various felony convictions). It is clear Mr. Moreno did not serve
the full 2.5 years in prison, because he was sentenced on March 11, 2011, see
Revised PSR, ¶ 40, and apprehended illegally in the country just a little more than
a year later, on May 21, 2012, see Revised PSR, ¶ 42. He may well have served
less than a year in prison, which could leave him with the same lack of knowledge
as the probationary defendant hypothesized in Rehaif.

b.

The illegal alien in possession conviction.

The evidence cited by the government in support of the illegal alien in
possession conviction is all addressed in Appellant’s Opening Brief. First, the fact
that a defendant’s presence is illegal does not mean he knows his presence is
illegal. See Appellant’s Opening Brief, at 21. Second, entering by climbing over
the fence rather than through an official border crossing, showing a desire to avoid
law enforcement officers, and showing a concern about going to jail are
explainable by other illegal activity, namely, smuggling marijuana into the country
and helping Mr. Moreno’s illegally present companion. See Appellant’s Opening
Brief, at 21-22.

-3A099

Case: 19-10252, 03/10/2020, ID: 11625474, DktEntry: 26, Page 7 of 13

2.

The Convictions Must Be Vacated Because the Indictment and Jury

Instructions Were Deficient.

Initially, the government is wrong in arguing the indictment is saved by its
citation of the felon in possession and illegal alien in possession statutes. Citation
of the statute is sufficient only if it “give[s] adequate knowledge of the missing
elements . . . ; otherwise, reference to a statute will not cure the defect in the
indictment.” United States v. James, 980 F.2d 1314, 1318 (9th Cir. 1992). The
citation did not give notice here because this Court’s long-standing precedent held
that the mens rea element in the statutes applied only to the possession element,
see United States v. Enslin, 327 F.3d 788, 798 (9th Cir. 2003).
The government is also incorrect in suggesting notice of the knowledge
element could not have affected trial counsel’s approach to the case. Trial counsel
could have argued there was no direct evidence Mr. Moreno knew he was in the
country illegally. If the government pointed to Mr. Moreno’s seemingly evasive
conduct described above, defense counsel could have responded with the
counterargument made above – that this was because Mr. Moreno had been
smuggling marijuana and providing assistance to his illegally present companion.
The government does also argue there is no plain error because the strength
of the evidence precludes a finding of effect on substantial rights. That fails for
some of the same reasons the government’s sufficiency of evidence argument fails.
Most of what is said about why the evidence is insufficient to support a conviction
can be said about why the evidence is insufficient to preclude a finding of effect
on substantial rights, which is an even lower bar than the sufficiency of evidence
bar. If the evidence was not insufficient to support one or both of the convictions,
it was at least weak enough for the deficient indictment and jury instructions to
-4A100

Case: 19-10252, 03/10/2020, ID: 11625474, DktEntry: 26, Page 8 of 13

affect substantial rights.

B.

IT WAS ERROR TO USE THE CHARGED ATTEMPTED MURDER TO

ENHANCE THE SENTENCE BECAUSE THE JURY FAILED TO REACH A
VERDICT ON THE CHARGED ATTEMPTED MURDER.

There is United States v. Watts, 519 U.S. 148 (1997), and there is Nelson v.
Colorado, 137 S. Ct. 1249 (2017). The question is how to reconcile the two
opinions and the respective reaches of the two opinions.
It is an overstatement for the government to argue that “[t]o accept [the
defense] contention, this Court would have to conclude that the Supreme Court [in
Watts] ignored one of the must fundamental concepts of criminal law and created
case law in direct violation of this principle.” Govt. Brief, at 31. The Supreme
Court itself characterized Watts as “present[ing] a very narrow question regarding
the interaction of the guidelines with the Double Jeopardy Clause [without] the
benefit of full briefing or oral argument.” United States v. Booker, 543 U.S. 220,
240 n.4 (2005). It declined to treat Watts as controlling on the issue presented in
Booker because “[t]he issue . . . was simply not presented” in Watts. Booker, 543
U.S. at 240.
The issue presented here – whether the presumption of innocence allows a
court to rely on conduct which was tried to a jury, but not found by the jury – was
similarly not presented in Watts. In addition, there is reasoning in Nelson which
suggests the presumption of innocence does not allow a court to base a sentence
on conduct which was tried to a jury, but not found by the jury. This Court can
and should hold the presumption of innocence does not allow this. Mr. Moreno
should not be sentenced for the charged attempted murder when the jury did not
-5A101

Case: 19-10252, 03/10/2020, ID: 11625474, DktEntry: 26, Page 9 of 13

convict him of the charged attempted murder.

C.

EVEN IF THE CHARGED ATTEMPTED MURDER COULD BE

CONSIDERED, THE DISTRICT COURT ABUSED ITS DISCRETION IN
FINDING THERE WAS PREMEDITATION.

The government complains the defense “fails to cite any authority
suggesting the facts of this case are insufficient to support a finding of
premeditation.” Govt. Brief, at 36. If the government is saying there is no case
with facts just like the present one, that is true. That is probably because no other
trier of fact has found premeditation on such evidence.
Appellant’s Opening Brief does cite the cases which have upheld findings
of premeditation and describe how much stronger the facts were in those cases.
Appellant’s Opening Brief also discusses the factors that show premeditation.
Finally, Appellant’s Opening Brief explains how those factors are not even close
to being present in this case.
The government fails to offer any discussion at all of case law. First, it fails
to cite any case which is factually similar. Second, it completely ignores the
factors established by the premeditation cases. It offers no explanation of how the
evidence here comes even close to establishing premeditation under those factors.
What was described by Officer Linde, who is the witness whose testimony
the district court expressly accepted, was a struggle which spontaneously erupted
when Officer Linde tried to handcuff Mr. Moreno, an attempt by Mr. Moreno to
take the gun, a struggle over the gun during which Mr. Moreno attempted to use it
to shoot Officer Linde, and the firing of shots during the struggle, over a period
that lasted perhaps a minute. There was no time for the sort of planning and
-6A102

AP P ENDI X9

Case: 19-10252, 07/09/2020, ID: 11747562, DktEntry: 34, Page 1 of 3

U.S. Department of Justice
United States Attorney
District of Arizona
United States District Courthouse
405 West Congress Street, Suite 4800
Tucson, Arizona 85701-5040

Telephone: (520) 620-7300
Fax: (520) 620-7320

July 9, 2020
Molly S. Dwyer
Clerk of Clerk of the Court
United States Court of Appeals for the Ninth Circuit
95 Seventh Street
San Francisco, California 94103-1526
Re:

United States of America v. Jesus Eder Moreno Ornelas
C.A. No. 19-10252

Dear Ms. Dwyer:
Pursuant to Fed. R. App. P. 28(j), the United States provides the following
supplemental citation of legal authorities:
First, this Court’s decision in United States v. Johnson, No. 17-10252, --- F.3d
---, 2020 WL 3458969 (9th Cir. June 25, 2020), further supports affirming the
defendant’s convictions on plain error review. (Ans. Br. at 20-26.) The defendant
claims insufficient evidence existed to prove his knowledge of his felon and alien
status, and that only trial evidence may be considered. (Op. Br at 20-22; Rep. Br. at
2-3.) However, in Johnson, this Court found that because the government’s
evidence was sufficient to sustain the felon in possession conviction at the time of
trial, but was subsequently rendered insufficient due to an intervening change in the
law (Rahaif), this Court could “review the entire record on appeal – not just the
record adduced at trial – in assessing whether [the defendant] has satisfied the fourth
prong of plain error review.” Id. at **3-4. “[U]ncontroverted evidence that a
defendant was sentenced to more than a year in prison,” including from the
presentence report, “will ordinary preclude a defendant from satisfying the fourth
prong of plain-error review when challenging the sufficiency of the evidence that he
knew of his status as a convicted felon.” Id. at *5. After reviewing the entire record,
1

A103

Case: 19-10252, 07/09/2020, ID: 11747562, DktEntry: 34, Page 2 of 3

including the unconverted information in the presentence report, this Court found
that Johnson “cannot show that refusing to correct the . . . error would result in a
miscarriage of justice.” Id. Such is the case at bar. (Ans. Br. at 22-24.)
Second, the defendant argues that Nelson v. Colorado, 137 S.Ct. 1249 (2017),
undermines United States v. Watts, 519 U.S. 148 (1997) (Op. Br. at 26-29; Rep. Br.
at 5-6), the case supporting the district court’s decision to consider at sentencing the
defendant’s attempted murder conduct for which he was not convicted (Ans. Br. at
30-32). The Sixth Circuit has rejected the defendant’s argument. United States v.
Rankin, 929 F.3d 399, 408 (6th Cir. 2019) (“Nelson did not curtail courts’ ability to
sentence based on uncharged conduct.”). This Court should do the same.
Sincerely,
MICHAEL BAILEY
United States Attorney
District of Arizona
s/ Angela W. Woolridge
Angela W. Woolridge
Attorneys for Plaintiff-Appellee

2

A104

______________________________________
No. ________________________
______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
______________________________________
JESUS EDER MORENO ORNELAS, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
______________________________________
CERTIFICATE OF SERVICE
______________________________________
I, Carlton F. Gunn, hereby certify that on this 29th day of December,
2020, a copy of the Petitioner’s Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit was served on the Solicitor General of the
United States, by electronic mail, at supremectbriefs@usdoj.gov, as consented
to by the Solicitor General’s office and authorized by this Court’s order issued
April 15, 2020 in light of the ongoing public health concerns relating to
COVID-19.
Respectfully submitted,
December 29 , 2020

s/ Carlton F. Gunn
CARLTON F. GUNN
Attorney at Law

